                                          UNCLASSIFIED





                      United States Department of State

                   and the Broadcasting Board of Governors

                          Office of Inspector General


                                       Office of Audits



             Audit of the Process To Request and Prioritize 

          Physical Security-Related Activities at Overseas Posts



                                         AUD-FM-14-17

                                          March 2014





                                            Important Notice —
This report is intended solely for the official use of the Department of State or the Broadcasting Board of
Governors or any agency or organization receiving a copy directly from the Office of Inspector
General. No secondary distribution may be made, in whole or in part, outside the Department of State
or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
authorization by the Inspector General. Public availability of the document will be determined by the
Inspector General under the U.S. Code, 5 U.S.C. § 552.




                                          UNCLASSIFIED

                                        UNCLASSIFIED 


                                                        L nil ed States Department of State
                                                        a nd the Broadcasting Board of Governors

                                                        Office of [".,p pctor Gen e,.al


                                            PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 ofthe Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office ofInspector
General's (OlG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

       This report addresses the Department of State's process for requesting and prioritizing
physical security-related activities at overseas posts. The report is based on interviews with
employees and officials of relevant agencies and institutions, direct observation, and a review of
applicable documents.

       OlG contracted with the indepeodent public accountant Kearney & Company, P.c.
(Kearney), to perform this audit. The contract required that Kearney perform its audit in
accordance with guidance contained in the Government Auditing Standards, issued by the
Comptroller General of the United States. Kearney ' s report is included.

        Kemney identified four areas in which improvements could be made: developing and
implementing standard policies and procedures for requesting funds and responding to posts'
requests; collecting and maintaining a comprehen sive list of all posts' physical security
deficiencies; developing and implementing formal, standardized processes to prioritize physical
security deficiencies; and better defining the roles of Department bureaus in these processes.

        OIG evaluated the nature, extent, and timing of Kearney's work; monitored progress
throughout the audit; reviewed Kearney's supporting documentation; evaluated key judgments;
and performed other procedures as appropriate. The recommendations contained in the report
were developed on the basis of the best knowledge available and were discussed in draft form
with those individual s responsible for implementation. OlG's analysis of management's
response to the recommendations has been incorporated into the report. OIG trusts that this
report will result in more effective, efficient, and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.




                                        Norman P. Brown
                                        Assistant Inspector General for Audits



                                        UNCLASSIFIED
                                       UNCLASSIFIED





                                                        1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                        PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com


Audit of the Process to Request and Prioritize Physical Security-Related Activities
at Overseas Posts



Office of Inspector General
U.S. Department of State
Washington, D.C.

Kearney & Company, P.C. (referred to as “we” in this letter), has performed an audit of the
Department of State’s process to request and prioritize physical security-related activities at
overseas posts. This performance audit, performed under Contract No. SAQMMA09D0002, was
designed to meet the objective identified in the report section titled “Objective” and further
defined in Appendix A, “Scope and Methodology,” of the report.

We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. We communicated the results of our
performance audit and the related findings and recommendations to the U.S. Department of State
Office of Inspector General.

We appreciate the cooperation provided by personnel in Department offices during the audit.




Kearney & Company, P.C.
Alexandria, Virginia
March 6, 2014




                                       UNCLASSIFIED


                          UNCLASSIFIED





Acronyms
BMIS       Buildings Management Integrated System
D&CP       Diplomatic and Consular Programs
DS         Bureau of Diplomatic Security
ESCM       Embassy, Security, Construction, and Maintenance
FE/BR      forced-entry/ballistic-resistant
FAH        Foreign Affairs Handbook
FAM        Foreign Affairs Manual
GAO        Government Accountability Office
GFMS       Global Financial Management System
NEC        new embassy compound
OBO        Bureau of Overseas Buildings Operations
OSPB       Overseas Security Policy Board
R&I        Repair and Improvement
RSO        Regional Security Officer
SECCA      Secure Embassy Construction and Counterterrorism Act of 1999
SERM       Security Equipment Responsibilities Matrix
SETL       Security Environment Threat List




                          UNCLASSIFIED


                                                           UNCLASSIFIED



                                                        Table of Contents


Executive Summary.............................................................................................................1 


Background ..........................................................................................................................2 


Objectives ............................................................................................................................7 


Audit Results........................................................................................................................8 

   Finding A. Not All FY 2012 Physical Security Funding and Expenditures


                Could Be Identified.....................................................................................8 

   Finding B. Processes To Request Funds for Physical Security Needs Could Be 

                Improved ...................................................................................................14 

   Finding C. Department Did Not Have Information To Ensure Highest Priority


                Physical Security Needs Were Funded .....................................................23 


List of Recommendations……. .........................................................................................39 


Appendices
   A. Scope and Methodology ........................................................................................41 

   B. Office of Inspector General – Physical-Security Funding Questionnaire .............45 

   C. Bureau of Diplomatic Security Response ..............................................................53 

   D. Bureau of Overseas Buildings Operations Response.............................................59 





                                                           UNCLASSIFIED


                                       UNCLASSIFIED






                                    Executive Summary
        Overseas embassies have long been a target of attacks against the United States. The
Department of State (Department) has more than 4,500 Government-owned or long-term leased
residential and non-residential buildings in more than 280 overseas locations. Over 86,000 U.S.
Government employees from more than 30 agencies work or live in these facilities. The
protection of these employees is the responsibility of the Secretary of State. A fundamental
component of protecting U.S. Government employees is maintaining sufficient physical security
at overseas facilities. The Department’s Bureau of Diplomatic Security (DS) and Bureau of
Overseas Buildings Operations (OBO) share responsibility for ensuring that overseas facilities
are safe and secure.

        The objectives of this audit were to identify the FY 2012 funding mechanisms and
amounts expended for physical security-related activities at Department-owned or
Department-operated buildings overseas, determine whether the process for posts to request
funds for physical security needs was easy to use and was understood by post security officials,
and determine to what extent the Department used physical security funds for high-priority
physical security needs at overseas posts during FY 2012. An external audit firm, Kearney &
Company, P.C. (Kearney), acting on behalf of the Office of Inspector General (OIG), performed
this audit.

         Kearney found that the Department funded its FY 2012 physical security-related
activities at overseas Department facilities primarily with funds received for Worldwide Security
Upgrades, which amounted to $775 million in FY 2012. The Department also received
$511.4 million from other agencies at overseas posts through cost-sharing agreements. In
addition, the Department can use other appropriated funds for physical security needs, including
funds received for Repair and Construction, Overseas Contingency Operations, and Worldwide
Security Protection. Kearney identified physical security-related expenditures amounting to
$76.1 million for Worldwide Security Upgrades and $48 million for Worldwide Security
Protection. However, Kearney could not identify all FY 2012 Department expenditures for
physical security-related activities overseas because the Department did not, and was not
required to, discretely track all physical security expenditures.

        Kearney found that the majority of post security officials responding to an OIG
questionnaire believed that the processes to request funds for physical security-related needs
were clear and easy to use. However, a significant number of post security officials believed the
processes were unclear and difficult and expressed dissatisfaction with the timeliness or
sufficiency of the responses received to their formal requests for physical security funding. The
lack of understanding, perceived complexity of the processes, and dissatisfaction with responses
to requests occurred because the Department had not developed standardized and documented
policies and procedures for the processes to request funds for the majority of physical
security-related needs. In addition, some post security officials indicated that the training
provided for requesting funds was inadequate. The lack of standard documented policies and

                                            1
                                       UNCLASSIFIED
                                        UNCLASSIFIED




procedures may result in post physical security needs not being addressed adequately or
promptly.

         Kearney could not determine the extent to which the Department used physical security
funds for high-priority physical security needs at overseas posts during FY 2012 because the
Department did not have complete information to prioritize post physical security needs.
Specifically, DS did not have a comprehensive list of physical security deficiencies at all
overseas posts, and neither DS nor OBO maintained a list of posts’ FY 2012 requests for
physical security funding and the disposition of those requests. In addition, neither DS nor OBO
had formal processes to prioritize physical security needs; funding decisions were often made by
one individual without documented standards and guidance. Further, DS and OBO did not have
sufficient formal processes for coordinating the establishment of standards to help determine
priorities and facilitate agreement on funding decisions. Nor had DS and OBO prepared a
comprehensive long-range physical security plan that would help focus attention on critical
needs. As a result, the Department could not ensure that the highest priority physical
security-related needs at overseas posts were corrected and that posts’ vulnerability to threats had
been sufficiently reduced.

        OIG made 10 recommendations to the Department related to developing and
implementing standard policies and procedures for requesting funds and responding to posts’
requests; collecting and maintaining a comprehensive list of all posts’ physical security
deficiencies; developing and implementing formal, standardized processes to prioritize physical
security deficiencies; and better defining the roles and responsibilities of DS and OBO in these
processes.

        In its February 21, 2014, response (see Appendix C) to the draft report, DS concurred
with the six recommendations addressed to it. In its February 19, 2014, response (see Appendix
D) to the draft report, OBO concurred with three recommendations and did not concur with one
recommendation addressed to it. Based on the comments received, OIG considers six of the 10
recommendations resolved, pending further action, and four recommendations unresolved.
Management’s responses and OIG’s replies to those responses are included after each
recommendation.

                                          Background
       Embassies have long been the target of terrorist attacks against the United States
overseas. Since 1993, there have been more than 20 attacks on U.S. diplomatic facilities,
including the deadly car bombings in Tanzania and Kenya and the assault on the U.S. Mission in
Benghazi, Libya. In August 2013, the threat of violence closed embassies in more than 10
countries for several days.

        The Department has more than 4,500 Government-owned or long-term leased residential
and non-residential buildings in more than 280 overseas locations. Over 86,000 U.S.
Government employees from more than 30 agencies, including the Department, the U.S. Agency
for International Development, the U.S. Department of Agriculture, and the Department of
Commerce, work or live in these facilities. The protection of these employees is the
                                                2
                                       UNCLASSIFIED
                                                UNCLASSIFIED




responsibility of the Secretary of State, as designated under the Omnibus Diplomatic Security
and Antiterrorism Act of 1986, as amended.

         A fundamental component of protecting U.S. Government employees is maintaining
sufficient physical security1 at overseas facilities. Physical security relates to physical
measures—such as locked doors, perimeter fences, and other barriers—designed to protect
facilities against access by unauthorized personnel (including attacks or intruders) and to
safeguard personnel working in those facilities.

       The average age of the Department’s overseas buildings exceeds 40 years. After the
bombings of the U.S. embassies in 1998, the Department determined that “195 (80 percent) of its
overseas facilities did not meet security standards and should be replaced.” 2 The Department
reported that as of February 2012, it had completed 98 new facilities and was continuing to
manage the ongoing construction or design of 43 facilities.

Physical Security-Related Legislation and Directives

        Over the past several decades, legislation and Presidential Directives have been
implemented to help ensure the security of U.S. diplomatic facilities and U.S. personnel on
official duty abroad. Those addressing physical security include the Omnibus Diplomatic
Security and Antiterrorism Act of 1986, the Secure Embassy Construction and Counterterrorism
Act of 1999 (SECCA), and Presidential Decision Directive/NSC-29. 3

         Omnibus Diplomatic Security and Antiterrorism Act of 1986

        Under Section 103(a) of the Omnibus Diplomatic Security and Antiterrorism Act of
1986, as amended, the Secretary of State must develop and implement, in consultation with the
heads of other Federal agencies having personnel or missions abroad, policies and programs to
provide for the security of U.S. Government operations of a diplomatic nature. These policies
and programs must include, among other things, protection of all U.S. Government personnel on
official duty abroad and their accompanying dependents, and establishment and operation of
security functions at all U.S. Government missions abroad. 4 In addition, Section 301 of the Act
requires the Secretary of State to convene an Accountability Review Board whenever there is
serious injury, loss of life, or significant destruction of property at or related to a U.S. mission
abroad.




1 Closely related to physical security are the technical security safeguards required to protect certain facilities


against intelligence collection or observation and procedural security to monitor and control physical access to


facilities. Technical security involves measures such as metal detectors, x-ray machines, alarm systems, and bomb


detection devices. Procedural security includes functions such as guard services, including marine guards.


2 Congressional Budget Justification, Volume 1: Department of State Operations, Fiscal Year 2014, p. 393.


3 Security Policy Coordination, Sept. 1994.


4 The Secretary of State’s security responsibilities under this act do not apply to personnel or facilities under the


command or control of a U.S. area military commander.


                                                     3
                                                UNCLASSIFIED
                                               UNCLASSIFIED



        Secure Embassy Construction and Counterterrorism Act

         As a result of the 1998 attacks on the U.S. Embassies in Nairobi, Kenya, and Dar es
Salaam, Tanzania, and the findings of the Accountability Review Boards convened as a result of
those attacks, Congress passed SECCA. SECCA established certain statutory security
requirements for U.S. diplomatic facilities. Specifically, SECCA required that the Department
implement an emergency action plan for overseas posts and provide crisis management and other
security-related training to Department personnel. In addition, SECCA required the Department,
when it selected a site for any new U.S. diplomatic facility abroad, to collocate all U.S.
Government personnel (except for those under the command of an area military commander) on
the site and to ensure the buildings would be located at least 100 feet from the perimeter of the
property.

        Presidential Decision Directive/NSC-29

       In September 1994, the President transferred the functions of the Department’s Overseas
Security Policy Group to the Overseas Security Policy Board (OSPB) under the Assistant to the
President for National Security Affairs. Chaired by the Assistant Secretary for DS, OSPB’s
members include directors of the foreign affairs and intelligence agencies represented at U.S.
missions abroad. The OSPB is responsible for implementing requirements from the Omnibus
Diplomatic Security and Antiterrorism Act and SECCA. The OSPB considers, develops,
coordinates, and promotes policies, standards, and agreements on overseas security operations,
programs, and projects that affect all U.S. Government agencies under the authority of a Chief of
Mission. 5

Department Bureaus and Offices With Security-Related Responsibilities

        Two Department bureaus share the responsibility for ensuring that the Department’s
overseas facilities are safe and secure: DS and OBO. The Foreign Affairs Manual (FAM)
assigns DS the responsibility for ensuring that all new construction and major renovation design
plans for buildings occupied by U.S. Government personnel comply with physical security
standards established by SECCA and OSPB. The FAM assigns OBO the responsibility for
incorporating physical security standards into the Department’s building projects. 6

        Bureau of Diplomatic Security

       DS is responsible for providing a safe and secure environment for the conduct of U.S.
foreign policy. DS also protects people, property, and information at the Department’s missions
worldwide. Every diplomatic mission in the world operates under a security program designed
and maintained by DS.



5 In each embassy, the Chief of Mission (usually an Ambassador) is responsible for executing U.S. foreign policy


goals and for coordinating and managing all U.S. Government functions in the host country.


6 12 FAM 312, “Program Management Responsibilities.”



                                                    4
                                               UNCLASSIFIED
                                        UNCLASSIFIED


        Several offices within DS have responsibilities relating to physical security. Three
offices with a significant level of involvement in physical security-related issues are the
International Programs Directorate, the Office of Physical Security Programs, and the Threat
Investigations and Analysis Directorate.

        International Programs Directorate/High Threat Programs Directorate. The
mission of these directorates is to provide leadership, support, and oversight of overseas security
and law enforcement programs and related policy for the benefit of U.S. Government interests
and the international community. The Directorate’s Office of Regional Directors works to
provide a safe and secure environment for the conduct of U.S. foreign policy through the
oversight and support of Regional Security Offices worldwide. The Office of Regional Directors
oversees the work of over 700 Regional Security Officers (RSO) at over 250 posts worldwide.
RSOs serve as personal security advisors to the Chiefs of Mission on all security issues. RSOs
are responsible for implementing and managing the Department’s security and law enforcement
programs abroad, and they identify security needs at posts and request funds for those needs.
RSOs are residents at a particular post, but they may be responsible for other constituent posts
within their respective region.

       Office of Physical Security Programs. The Office of Physical Security Programs,
which is under the purview of DS’ Countermeasures Directorate, directs and develops worldwide
physical security standards, policies, procedures, and guidelines. The Office’s Physical Security
Division provides oversight for new construction and major renovation projects abroad by
ensuring conformance with OSPB-approved security standards.

        Within the Physical Security Division, the Project Coordination Branch evaluates
projects to ensure the proper application of physical security standards in the selection, design,
construction, and modification of facilities abroad. The goal of the physical security program is
to provide a safe and secure physical security environment at overseas diplomatic posts for the
protection of U.S. Government personnel, facilities, and classified information under the
authority of the Chief of Mission. The Project Coordination Branch uses OSPB-approved
physical security standards and the statutory requirements contained in SECCA to achieve this
goal. In addition, the New Office Building Branch provides project oversight to ensure that
OSPB standards and SECCA requirements are implemented for new office buildings abroad.

         Desk Officers in the Project Coordination Branch provide post management and RSOs
with subject matter guidance and assistance. Desk Officers serve as the RSOs’ points of contact
for all physical security matters. Specifically, Desk Officers work closely with RSOs to ensure
that RSOs’ requests for physical security upgrades, waivers to SECCA, or exceptions to OSPB
standards have merit, are accurate, are complete, are coordinated with OBO, and are tracked to
conclusion.

       Threat Investigations and Analysis Directorate. The Threat Investigations and
Analysis Directorate is the primary DS organization that gathers, analyzes, investigates, and
disseminates threat information to protect American interests worldwide. The Directorate’s
Office of Intelligence and Threat Analysis ensures that timely intelligence information is made
available to DS officers, both domestically and overseas. The Office of Intelligence and Threat
                                                5
                                        UNCLASSIFIED
                                                 UNCLASSIFIED




Analysis also prepares annually the Security Environment Threat List (SETL), which categorizes
threats at posts overseas into five threat categories with four levels—critical, high, medium, or
low. The OSPB physical security standards applied to an overseas facility 7 correspond with the
SETL threat level identified for that post.

           Bureau of Overseas Buildings Operations

        OBO is responsible for incorporating physical security standards, including SECCA and
OSPB requirements, into building projects. OBO formulates and directs the implementation of
building policies to provide safe, secure, and functional facilities overseas. Additionally, OBO
determines priorities for the design, construction, acquisition, maintenance, utilization, and sale
of real properties.

       OBO offices primarily involved with physical security-related issues include the Offices
of Security Management, Operations, and Design and Engineering.

        Office of Security Management. The Office of Security Management, within OBO’s
Construction, Facilities and Security Management Directorate, allocates the majority of the
funding for physical security activities overseas. The Office of Security Management’s mission
is to ensure that all appropriate physical, technical, and procedural security measures are
incorporated into every OBO project design for U.S. diplomatic facilities and to manage
construction security programs that prevent physical and technical penetration and safeguard
against mob violence and terrorist attacks. The Office of Security Management directs and
monitors adherence to physical and technical security policies and standards for new office
buildings, major renovations, and other upgrade projects for facilities abroad to protect against
physical or technical compromise during construction.

       Within the Office of Security Management’s Security Operations Division, the Program
Security Operations Branch is responsible for the compound security program. This branch
controls the funding for physical security upgrades of existing facilities. The Program Security
Operations Branch manages major upgrades, which are large-scale, multimillion-dollar projects.
Minor projects, such as installing bollards and window grills, are usually managed by posts, with
the Program Security Operations Branch providing design expertise and some assistance.

        Office of Operations. The Office of Operations mission is to serve as overseas posts'
point of contact within OBO. Within the Office of Operations, the Area Management Division
provides customer service support to posts and acts as a liaison between posts and OBO,
explaining posts’ needs and limitations to OBO and OBO's policies and procedures to posts.
Posts’ Repair and Improvement (R&I) projects are managed by the Area Management Division.

       Office of Design and Engineering. The Office of Design and Engineering, under
OBO’s Program Development, Coordination and Support Directorate, provides design, research,
and technical assistance bureau-wide for all Department facilities overseas. The Office of
Design and Engineering’s Mechanical Engineering Division is responsible for establishing

7   The OSPB standards provide requirements for eight types of facilities.
                                                      6
                                                 UNCLASSIFIED
                                           UNCLASSIFIED




U.S. Government requirements for environmental security for overseas buildings, including
chanceries, office annexes, consulates, residences, Marine Security Guard quarters, warehouses,
and compound access control facilities. The Mechanical Engineering Division establishes
criteria for plans, designs, specifications, and analysis in new construction and in retrofits and
upgrades of existing overseas buildings.

        Overseas Security Policy Board

        OSPB working groups develop security standards for threat categories. These standards
cover topics that include Construction Security, Construction Materials and Transit Security
Design and Construction of Controlled Access Areas, Physical Security of Unclassified
Warehouses, and Physical Security. 8 For physical security, OSPB develops standards on items
such as the height of perimeter walls, the number of minutes of protection for
forced-entry/ballistic-resistant (FE/BR) doors, and the distance for building setbacks.

Prior OIG Reports

        OIG issued a number of audit and inspection reports related to physical security issues at
overseas posts. For example, in its reports Audit of Department of State Compliance With
Physical/Procedures Security Standards at Selected High Threat Level Posts 9 and Audit of
Department of State Compliance With Physical Security Standards at Selected Posts Within the
Bureau of African Affairs, 10 OIG’s Office of Audits found that posts were not always in
compliance with current physical security standards and that common physical and procedural
security deficiencies occurred among the posts included in the audits. In addition, in the report
Review of Overseas Security Policy Board Exceptions and Security Embassy Construction and
Counterterrorism Act of 1999 Waivers, 11 the Office of Inspections reported that DS had not
adequately tracked exceptions granted to the OSPB physical security standards or SECCA
waivers of collocation and setback.

                                             Objectives
        The objectives of this audit were the following:

        •		 To identify the FY 2012 funding mechanisms and amounts expended for physical
            security-related activities at Department-owned or -operated buildings overseas.
        •		 To determine whether the process for posts to request funds for physical security
            needs at Department-owned or -operated buildings was easy to use and was
            understood by post security officials.
        •		 To determine to what extent the Department used physical security funds for high-
            priority physical security needs at overseas posts during FY 2012.


8 12 FAM 314, “OSPB Security Standards.”
9 AUD-SI-13-32,   Jun. 2013.
10 AUD-HCI-13-40, Sept. 2013.
11 ISP-I-13-06, Jan. 2013.

                                                7
                                           UNCLASSIFIED
                                                UNCLASSIFIED




                                                 Audit Results



Finding A. Not All FY 2012 Physical Security Funding and Expenditures
Could Be Identified
        The Department funded its FY 2012 physical security-related activities at
Department-owned or -operated buildings overseas primarily with funds received for Worldwide
Security Upgrades in the Department’s Embassy, Security, Construction, and Maintenance
(ESCM) appropriation. These funds, amounting to $775 million in FY 2012, supported OBO’s
Compound Security Program, Capital Security Construction Program, and Maintenance Cost
Sharing Program. The Department also received $511.4 million for the Capital Security
Construction and Maintenance Cost Sharing Programs from other agencies at overseas posts
through cost-sharing agreements. In addition, although not provided specifically for physical
security, other funds may have been used for physical security needs in FY 2012, including
funds received by OBO for Repair and Construction and Overseas Contingency Operations, as
well as funds received by DS for Worldwide Security Protection.

         Kearney could not identify all Department expenditures for physical security-related
activities overseas because the Department did not, and was not required to, discretely track all
physical security expenditures. The Department used various accounting codes to classify and
account for its financial transactions. For example, function codes 12 were used to show the
purpose of and to account for expenditures and program costs. The Department had established
specific physical security-related function codes for Compound Security Program expenditures
and other function codes for non-residential and residential physical security expenditures.
However, not all physical security-related activities had discrete function codes. For example,
OBO expended approximately $938 million of Worldwide Security Upgrades funds in FY 2012,
but only $76.1 million of that amount, which was expended through the Compound Security
Program, was recorded with physical security-related function codes and could be directly
attributed to physical security activities. 13 (The methodology used to identify physical security-
related transactions is described in Appendix A.) OBO expenditures from other Worldwide
Security Upgrades programs, as well as expenditures from Repair and Construction and
Overseas Contingency Operations funds, were recorded with non-physical security-related
function codes and could not be directly attributed to physical security activities. In addition to
the Compound Security Program expenditures of $76.1 million, Kearney identified DS
expenditures amounting to approximately $48 million from Worldwide Security Protection funds
for non-residential physical security.




124 FAH-1 H-500, “Function Classification Structure.”


13Kearney did not test expenditures as part of this audit. Although Kearney could not directly attribute all 

Worldwide Security Upgrades expenditures to physical security activities based on the accounting codes used,


nothing came to Kearney’s attention within the limited scope of its analysis of expenditures that would indicate the


expenditures were not appropriate.


                                                     8
                                                UNCLASSIFIED
                                       UNCLASSIFIED




Worldwide Security Upgrades

        The Department’s FY 2012 ESCM appropriation contained $775 million in funding for
worldwide security upgrades, acquisition, and construction. This funding supported three OBO
Programs: Compound Security, Capital Security Construction, and Maintenance Cost Sharing.
In addition, other agencies provided a total of $511.4 million for the Capital Security
Construction and Maintenance Cost Sharing Programs.

        OBO expended approximately $938 million of Worldwide Security Upgrades funds in
FY 2012. However, only $76.1 million of that amount, which was expended for the Compound
Security Program, could be directly attributed to physical security activities. Kearney could not
identify the physical security expenditures for the Capital Security Construction and
Maintenance Cost Sharing Programs by the function codes used.

       Compound Security Program

         The Department received $85 million in FY 2012 for the Compound Security Program.
This program funded physical security upgrades at long-term leased and Government-owned
facilities, including comprehensive security upgrade projects, major FE/BR resistant door and
window replacement projects, chemical/biological projects, emergency egress projects, and
security upgrades for soft targets. The program also funded the design and construction of
compound access controls, replacement of shatter-resistant window film, replacement of active
and passive vehicle barriers, and other physical security measures.

        During FY 2012, OBO expended approximately $76.1 million of Compound Security
Program funds specifically for physical security-related projects. Approximately 44 percent, or
$33.3 million, of the expenditures were associated with comprehensive major compound security
upgrades. For example, OBO expended funds for newly initiated comprehensive physical
security upgrade projects at four posts and for over 20 projects that had been initiated in prior
years. An additional 19 percent of the funds, or $14.5 million, were spent for the installation or
lifecycle replacement of major FE/BR doors and windows, including new projects at 10 posts,
nearly a dozen projects that were initiated in prior years, and the planning and design of future
projects for five posts.

       In addition to the major compound physical security upgrades and FE/BR projects, OBO
expended approximately $2.4 million for physical security-related projects, including one major
emergency egress project, in response to riots and attacks that occurred at some posts. OBO also
expended about $7.3 million for minor physical security upgrade projects, primarily related to
the improvement of perimeter security, such as the construction of mantraps and gates and
upgrades to perimeter walls and fences, at dozens of posts. Further, expenditures of
approximately $7.1 million for environmental security included the installation of off-compound
mail screening facilities at 26 posts. All FY 2012 Compound Security Program expenditures by
function code are summarized in Table 1.



                                            9
                                       UNCLASSIFIED
                                                  UNCLASSIFIED


         Table 1. FY 2012 Compound Security Program Expenditures
          Function Code                                   Description                                     Amount
          7941                  Minor Physical Security Upgrades                                           $7,269,196
          7943                  Major FE/BR Doors and Windows                                              14,514,437
          7944                  Environmental Security                                                      7,054,265
          7945                  Major Compound Physical Security Upgrades                                  33,301,229
          7946                  Minor FE/BR Doors and Windows                                               4,669,274
          7947                  Emergency Fire and Egress                                                   2,389,973
          794X                  Other                                                                       6,890,508
          Total                                                                                           $76,088,882
         Source: Prepared by Kearney based on its analysis of FY 2012 expense transactions in the Department’s financial
         accounting system.

         Capital Security Construction Program

        The Department received $579.2 million in FY 2012 to fund the Capital Security
Construction Program. In addition, other agencies with overseas staff under Chief of Mission
authority contributed $429.1 million to the Capital Security Construction Program through the
Capital Security Cost Sharing Program. 14 This funding, totaling $1 billion in FY 2012,
supported the planning, design, and construction of new embassy compounds (NEC) and other
capital projects to replace existing facilities.

       During FY 2012, OBO expended $820 million of Capital Security Construction Program
funds. These funds were used to complete projects at nine overseas posts, including Kyiv,
Ukraine; Monrovia, Liberia; and Mumbai, India. The funds were also used to manage the
ongoing design and construction of 43 facilities, including NECs and other capital projects at
Cotonou, Benin; Jakarta, Indonesia; Jeddah, Saudi Arabia; Taipei, Taiwan; and Mbabane,
Swaziland.

       Construction expenditures amounted to approximately $616 million and accounted for
75 percent of the total expenditures. Other significant expenditures were for project supervision
(about $42.7 million, or 5 percent), the acquisition of unimproved land (about $39.3 million, or
5 percent), and onsite security at construction projects (about $30.6 million, or 4 percent).
FY 2012 program expenditures by function code are summarized in Table 2.




14The Capital Security Cost Sharing Program requires that all affected agencies at overseas posts pay a
proportionate share toward the construction of secure facilities. Other agencies’ shares are based upon their total
number of existing and projected authorized positions overseas.
                                                       10
                                                  UNCLASSIFIED
                                                  UNCLASSIFIED


         Table 2. FY 2012 Capital Security Construction Program Expenditures
          Function Code                                   Description                                     Amount
          7110                  Unimproved Land                                                           $39,293,476
          7111                  Design/Development                                                         16,528,185
          7112                  Construction                                                              616,249,866
          7113                  Site Maintenance and Development Plan                                       8,885,265
          713X                  Furnishings                                                                18,002,215
          7141                  Project Supervision Capital Projects                                       42,661,309
          7142                  Construction Security Site Operations                                      30,621,695
          7143                  Construction Surveillance/Guards                                           18,596,348
          7144                  Other Construction Security Program                                         3,257,902
          7531                  Planning & Development Program Support                                     24,602,703
          7541                  Real Estate Program Costs                                                   1,337,708
          Total                                                                                          $820,036,672
         Source: Prepared by Kearney based on its analysis of FY 2012 expense transactions in the Department’s financial
         accounting system.

       Kearney was unable to determine the amount of Capital Security Construction Program
funds spent specifically for physical security-related items by the function codes used. However,
the Department considers all Capital Security Construction Program expenditures to be related to
physical security because these funds were used only if the requirement for new construction was
driven primarily by security concerns 15 and the facilities are built to meet SECCA standards.

         Maintenance Cost Sharing Program

        The Department received $110.8 million in FY 2012 for the Maintenance Cost Sharing
Program. In addition, other agencies contributed $82.2 million to the Maintenance Cost Sharing
Program through the Capital Security Cost Sharing Program. 16 Although provided for
worldwide security upgrades, the use of these funds is not limited to physical security-related
items. This funding, totaling $193 million in FY 2012, was used for the maintenance and
rehabilitation of non-residential properties that were shared by multiple agencies at post. The
Maintenance Cost Sharing Program funds major rehabilitation projects as well as routine facility
maintenance and repair and preventive maintenance contracts. Major rehabilitation projects
include upgrades to fire and life safety systems, heating and air conditioning systems, electrical
systems, and physical and technical security items. Routine maintenance and repair includes
repairs of a minor nature, such as fixing broken pipes, painting, and purchasing supplies in bulk.

       OBO expended approximately $15.7 million of Maintenance Cost Sharing Program funds
in FY 2012, which was the first year of the Maintenance Cost Sharing Program. The majority of
expenditures for FY 2012, $10.7 million, were for routine maintenance and repair. OBO also
expended Maintenance Cost Sharing Program funds for four major rehabilitation projects at

15 The Department receives separate funding for the construction of new overseas facilities if the requirement is


primarily for other than security reasons.


16 The Capital Security Cost Sharing Program was expanded in FY 2012 to include the Maintenance Cost Sharing


Program.


                                                       11
                                                  UNCLASSIFIED
                                                 UNCLASSIFIED


Budapest, Hungary; Frankfurt, Germany; Vilnius, Lithuania; and Wellington, New Zealand. FY
2012 Maintenance Cost Sharing Program expenditures by function code are summarized in
Table 3.

        Table 3. FY 2012 Maintenance Cost Sharing Program Expenditures
         Function Code                                   Description                                     Amount
         7901                  Post Routine Maintenance and Repair                                       $10,708,100
         7904                  Facility Rehabilitation and Support Systems                                 2,077,835
         7905                  Environmental Security Protection Systems Program                           1,728,012
         791X                  Major Rehabilitation Design/Construction/                                   1,162,578
                               Supervision/Security
         Total                                                                                           $15,676,525
        Source: Prepared by Kearney based on its analysis of FY 2012 expense transactions in the Department’s financial
        accounting system.

         Kearney was unable to determine the amount of Maintenance Cost Sharing Program
expenditures for physical security because the physical security-related expenditures were not
discretely tracked by the Department. All post routine maintenance and repairs are recorded to
the same function code. In addition, when a major rehabilitation project is scheduled at a post
that is also scheduled to receive a physical security upgrade, the physical security upgrade is
performed as part of the major rehabilitation project to avoid developing two separate plans for
the projects. Because the physical security component was included as part of the overall
project, the physical security expenditures could not be identified separately.

        Miscellaneous Worldwide Security Upgrades Expenditures

       In addition to the expenditures for the three Worldwide Security Upgrades programs,
Kearney identified expenditures of approximately $26.9 million for other items. Kearney was
unable to determine whether any of these expenditures were for physical security-related items
based on the function codes used. 17 These additional expenditures by function code are
summarized in Table 4.

        Table 4. FY 2012 Other Expenditures
         Function Code                                   Description                                     Amount

         6134                  Procurement Services - ICASS                                              $20,542,097
         7663                  Maintenance Tech Support Program                                            6,279,567
         768X/Blank            Miscellaneous                                                                  66,437
         Total                                                                                           $26,888,101
        Source: Prepared by Kearney based on its analysis of FY 2012 expense transactions in the Department’s financial
        accounting system.




17According to OBO management, the “Procurement Services – ICASS” expenditures amounting to $20.5 million
may have been related to NEC and rehabilitation projects.
                                                      12
                                                 UNCLASSIFIED
                                         UNCLASSIFIED




Other Funding Used for Physical Security

       While the majority of the Department’s physical security projects were funded from
OBO’s Worldwide Security Upgrades programs, funds from other sources were used for
physical security. For example, funds provided to OBO for Repair and Construction and
Overseas Contingency Operations can be used for some physical security needs. In addition,
funds provided to DS for Worldwide Security Protection can also be used for physical security.

       Repair and Construction

       The Department’s FY 2012 ESCM appropriation contained $63 million for repair and
construction. This funding supported two OBO programs: R&I and Major Rehabilitation.
Some funds from these programs were used for physical security needs.

        Repair and Improvement Program. The Department received $51 million in FY 2012
for OBO’s R&I Program. This program funds repairs and upgrades at Department facilities and
is a core component of the OBO maintenance program. Although the use of R&I Program funds
for physical security is fairly limited, posts may fund certain repairs relating to physical security
using these funds. For example, walls, FE/BR doors, and non-FE/BR doors can be repaired
using R&I funds. In FY 2012, OBO expended $22.8 million for R&I. Because R&I
expenditures were recorded using the R&I function codes, the physical security expenditures
could not be identified separately.

        Major Rehabilitation Program. The Department received $12 million in FY 2012 for
OBO’s Major Rehabilitation Program. The Major Rehabilitation Program funds major
comprehensive renovations of existing facilities that are occupied only by Department personnel.
In FY 2012, OBO expended $65.6 million for major rehabilitation projects. These projects may
include physical security components. However, because the physical security components are
included as part of the overall project, the physical security expenditures cannot be identified
separately by function code in the Department’s accounting system. The types and costs of
physical security-related items may be identifiable in the construction contract for each major
rehabilitation project; however, Kearney did not review the construction contracts as part of this
audit.

       Overseas Contingency Operations

       In FY 2012, the Department received Overseas Contingency Operations funds amounting
to $115.7 million under the ESCM appropriation. This funding, which began in FY 2012,
provides for the extraordinary and temporary costs for operations and assistance in Iraq,
Afghanistan, and Pakistan.

        In FY 2012, OBO expended Overseas Contingency Operations funds amounting to $9.7
million from the ESCM appropriation. Of the $9.7 million, $9 million was for rent expenses and
approximately $0.7 million was related to a major rehabilitation project in Tripoli, Libya.
Kearney could not determine whether the major rehabilitation project included a physical
security component based on the function codes used for these expenditures.
                                              13
                                      UNCLASSIFIED
                                                UNCLASSIFIED



       Worldwide Security Protection

        The Department’s FY 2012 Diplomatic & Consular Programs (D&CP) appropriations
contained $1.35 billion in funding for Worldwide Security Protection and an additional $236.2
million in Overseas Contingency Operations funds. This funding supports primarily security
staffing to ensure the safety of American diplomats, to protect the integrity of the data and
systems on which these personnel rely, and to secure the facilities in which these personnel work
and reside. Specifically, the funding supports the worldwide local guard program, high-threat
protection, security technology, armored vehicles, cyber security, information security, facility
protection, and diplomatic couriers. It also supports emergency preparedness programs, internal
and interagency collaborations and information sharing, and medical emergencies planning in the
event of mass casualties from a biological or chemical attack.

        Although the majority of physical security needs are funded by OBO, DS has used
Worldwide Security Protection funds for physical security-related projects. Kearney identified
FY 2012 expenditures amounting to approximately $48 million for non-residential physical
security that were recorded to function code 5831—Perimeter and Internal Security. A DS
official stated that DS used this function code for physical security-related activities. For
example, DS had provided Worldwide Security Protection funds totaling $259,920 in FY 2012
for six physical security projects relating to perimeter and internal security in Libya, Saudi
Arabia, and Yemen. A summary of FY 2012 expenditures recorded to function code 5831—
Perimeter and Internal Security by appropriation, or expenditure account, is provided in Table 5.

       Table 5. FY 2012 Function Code 5831 Expenditures by Expenditure Account
                                  Expenditure Account                                          Amount
        D&CP Afghanistan Operations – Overseas Contingency                                     $27,645,000
        Operations
        D&CP Afghanistan Operations                                                              1,791,224
        D&CP Emergency Supplemental                                                             17,605,430
        D&CP Iraq Embassy Operations                                                             1,218,002
        D&CP Machine Readable Visa Processing Fee                                                    6,038
        Total                                                                                  $48,265,694
       Source: Prepared by Kearney based on its analysis of FY 2012 expense transactions in the Department’s financial
       accounting system.

Finding B. Processes To Request Funds for Physical Security Needs Could Be
Improved
        The majority of the post security officials responding to an OIG questionnaire indicated
that the processes to request funds for physical security-related needs at Department-owned or
Department-operated buildings were clear and easy to use. (The process used for the
questionnaire is explained in Appendix A, and the questionnaire is in Appendix B.) However, a
significant number of post security officials responded that the processes were unclear and
difficult to use. In addition, a significant number of respondents expressed dissatisfaction with
                                                     14
                                                UNCLASSIFIED
                                                   UNCLASSIFIED




the timeliness or sufficiency of the responses OBO provided to the respondents’ formal requests
for physical security funding.

        The lack of understanding, the perceived complexity of the processes, and dissatisfaction
with responses to formal requests occurred because neither DS nor OBO had developed
standardized and documented policies and procedures for the processes to request funds for the
majority of physical security-related needs. In addition, many post security officials indicated
that the training provided for requesting funds was inadequate. As of September 2013, DS was
developing a tool to help identify and document post physical security-related needs, which may
clarify and simplify the request processes. However, this tool was not expected to be fully
implemented until 2016. The lack of standard, documented policies and procedures may result
in post physical security needs not being addressed adequately or promptly.

Many Posts Indicated Physical Security-Related Needs Existed During FY 2012

        In response to the OIG questionnaire, 83 (63 percent) of 132 post security officials
indicated that their posts had physical security-related needs in FY 2012. The types of needs
identified by these post officials included minor physical security upgrades, major physical
security upgrades, other security issues, and R&I, as shown in Table 6.

Table 6. Physical Security-Related Needs During FY 2012 Reported in Response to OIG
Questionnaire
                                                                                           Number of
     Type of Need                                         Definition
                                                                                             Needs
    Minor Physical           Post-managed projects, generally less than $250,000, with           136
   Security Upgrade          upgrades to perimeter protection, facility protection, and
                             interior protection to bring deficient facilities into
                             compliance with OSPB standards.
    Major Physical           OBO-managed projects, generally $250,000 or more, with               62
   Security Upgrade          upgrades to perimeter protection, facility protection, and
                             interior protection to bring deficient facilities into
                             compliance with OSPB standards.
     Other Security          Any projects relating to physical security that are not              13
        Issues               encompassed by the other categories, such as upgrades that
                             are not related to OSPB standards but may be warranted
                             given special circumstances at an overseas post.
      Repair and             Projects to restore deteriorated or damaged property to its          60
     Improvement             original condition or increase a property’s value or change
                             its use.
 Total                                                                                           271
Source: Prepared by Kearney based on its analysis of questionnaire responses.

        The majority of the post needs were identified as having been existing deficiencies (71,
or 46 percent), with the second largest number identified as occurring because of normal
deterioration of the facilities (38, or 24 percent).


                                                        15
                                                   UNCLASSIFIED
                                               UNCLASSIFIED


       Although 83 respondents said that their posts had physical security-related needs in
FY 2012, only 59 (71 percent) of the 83 indicated that they had formally requested funding for
those needs. The reasons provided for not formally requesting funding for physical security
needs included that post did not believe the need would be funded, post used its own funds to fill
the need, a post was scheduled for a NEC, and physical security needs were incorporated into a
major rehabilitation project for which funding was provided through a different process.

Processes Existed for Requesting Physical Security Funds Depending on Need

          The processes for requesting funding for minor and major physical security upgrades
were similar. Generally, when RSOs identify a physical security need or deficiency, they first
contact their respective Desk Officers informing them of the need via email. The Desk Officer
reviews the informal request to determine whether the need is required to meet OSPB standards.
If it is required, the Desk Officer communicates the request to OBO’s Program Security
Operations Branch. If OBO agrees with the request, the RSO prepares, with the Desk Officer’s
assistance if needed, a formal request cable for submission to OBO. Once OBO approves the
formal request, OBO enters the request into the Buildings Management Integrated System, 18
which generates a project number. OBO officials stated that OBO will approve funds for minor
physical security upgrades when it receives the formal request. Approved major physical
security upgrades are added to an “out-year” schedule and are completed in order of priority.

        Other processes existed to request funding for specific physical security-related items.
For example, when posts need FE/BR products, such as doors or windows, the RSO informs
OBO’s Program Security Operations Branch directly via email. If the request is minor, which
includes the maintenance and repair of existing FE/BR doors and windows, OBO funds the
request in the year in which it is requested. Major FE/BR requests, which include large and
significant projects to install new or perform lifecycle replacement of FE/BR doors, windows,
and glazing panels, are added to an “out-year” schedule.

        In addition, posts may request security-related items, such as repairs of walls, roofs, and
non-FE/BR windows and doors, through OBO’s process for funding R&I projects. Posts submit
requests for R&I projects, both security and non-security related, to OBO electronically through
a Web-based system that interfaces with the Buildings Management Integrated System on a
nightly basis. Area Managers in the Area Management Division review and approve each
request in the system.

Processes To Request Funding Were Clear and Easy but Needed Improvement

        Many of the post security officials who responded to the OIG questionnaire found the
processes to request funding for physical security-related needs clear and easy to use. But some
post security officials believed the processes were unclear or difficult. Overall, in response to a
question regarding whether the processes were clear or unclear, 19 more than twice the responses

18 The Buildings Management Integrated System is the database that OBO uses to track and prioritize OBO-funded
facility maintenance requirements, capital construction projects, and noncapital repair and rehabilitation projects.
19 For this report, clear is defined as “easily understood or free from doubt or confusion.”

                                                    16
                                               UNCLASSIFIED
                                                     UNCLASSIFIED




were “very clear” or “somewhat clear” (206 [56 percent] of 370) than were “very unclear” or
“somewhat unclear” (101 [27 percent] of 370). Similarly, in response to a question regarding
whether the processes were easy 20 or difficult, more responses were “very easy” or “somewhat
easy” (148 [41 percent] of 360) than were “very difficult” or “somewhat difficult” (96 [27
percent] of 360). The number of responses for each category of physical security need is
provided in Table 7.

Table 7. Understanding of the Process To Request Funding for Physical Security Needs
                                          Clarity                                    Ease of Use
      Category                    Clear           Unclear                      Easy            Difficult
 Minor Physical                    (65) 65%         (20) 20%                    (48) 48%           (24) 24%
 Security Upgrades
 Major Physical                    (47) 50%               (32) 34%               (29) 33%         (29) 33%
 Security Upgrades
 Repair and                        (51) 56%               (25) 27%               (38) 43%         (22) 25%
 Improvement
 Other Security                    (43) 51%               (24) 28%               (33) 40%         (21) 25%
 Issues
 Total                           (206) 56%              (101) 27%              (148) 41%          (96) 27%
Source: Prepared by Kearney based on its analysis of responses to OIG’s questionnaire.

        One factor that likely contributed to post security officials’ positive perception of the
processes was the adequacy of assistance provided to posts during the request processes by DS
and OBO. A large majority, 93 (84 percent) of 111 respondents, found DS assistance to be either
“very adequate” or “somewhat adequate,” and 81 (74 percent) of 110 respondents deemed DS
assistance to be either “very timely” or “timely.” Almost half of the respondents, 49 (47 percent)
of 105, also found OBO assistance to be either “very adequate” or “somewhat adequate.” One
post security official commented that the points of contact “at both bureaus have generally been
helpful in providing appropriate guidance on how to request funding.” Another post security
official commented “[i]n my experience I have been serviced well by OBO and DS concerning
needs for physical security upgrades and RSO inquiries.” A third post security official stated
that their post had been “well supported in the area of physical security upgrades. Both DS and
OBO have for the most part been very helpful during the process.”

        Although there were many positive responses to the questionnaire relating to the clarity
and ease of the processes to request funding for physical security needs, there were a significant
number of responses that the request processes were unclear (27 percent) or difficult (27
percent). The perception that the processes were unclear or difficult did not appear to be the
result of less experience with the processes. In fact, officials with greater experience generally
found the processes for requesting funds for minor physical security upgrades, major physical
security upgrades, and other security issues to be more difficult than officials who had less
experience.




20   For this report, easy is defined as “not hard to do or requiring little effort.”
                                                          17
                                                     UNCLASSIFIED
                                        UNCLASSIFIED




       Some Questionnaire Respondents Believed Responses to Posts’ Funding Requests
       Were Insufficient

        Many post security officials who responded to the OIG questionnaire also indicated that
the assistance provided to post was untimely and that information provided to posts by OBO
related to the denial of formal requests was inadequate.

        Specifically, 31 (30 percent) of 103 respondents indicated that OBO’s assistance during
the process of requesting funds was “untimely” or “very untimely.” For example, one
respondent stated that their post’s FY 2012 requests “have still not been approved or denied” in
August 2013, or 10 months later. Another respondent stated, “I requested funds for a project, 6
months later [OBO] responded and requested more info [information] before [close of
business]. Then [OBO] did not respond for about 2 months before another short fuse
request.” An additional respondent stated that “cables and emails went unanswered and were it
not for the intervention by the Ambassador direct to the Director of OBO, we do not believe we
would have received a response.”

       Respondents were also dissatisfied with the responses received when their requests for
funding were denied. Specifically, 14 (41 percent) of 34 respondents indicated that the responses
received were either “somewhat inadequate” or “very inadequate.” Respondents to the
questionnaire who stated that some of their FY 2012 requests were not funded reported on
average that only 44 percent of their denied requests included an explanation of the denial of
funding.

        OBO officials stated that OBO had an informal goal of responding to all official requests
for physical security funding within 2 weeks of receiving the request but that this goal was not
always met. One OBO official explained that workload backlogs and competing priorities
resulted in some responses being delayed. OBO officials further explained that they were
confident that OBO had informed posts about decisions related to requests but that the
respondent may not have been aware of the response. For example, an OBO official stated that
OBO might have informed and provided information to a different representative at a post, such
as the post’s Facilities Manager, rather than to the post security official. In these cases, OBO’s
response might not have been shared with all relevant parties at the post. In addition, posts
sometimes submitted a request for funding to an incorrect program within OBO, which increased
response time while the request was transferred to the correct program.

        Although there are circumstances in which OBO responses may be delayed or when
communications with posts are not relayed to all interested parties, the significant rate of
dissatisfied customers indicates that OBO should take action to better communicate with posts
on formal requests for physical security funding.

Processes Were Not Standardized and Documented, and Training Was Not Sufficient

        The negative perceptions expressed by post security officials can be attributed, in part, to
the lack of formal policies and procedures for the processes to request funds for physical
security-related needs, including the roles of DS and OBO in those processes. In addition, some
                                                18
                                         UNCLASSIFIED
                                            UNCLASSIFIED




post security officials commented that they had not received sufficient training on how to request
funding.

        Some Processes Were Not Standardized and Documented

        According to the Government Accountability Office’s (GAO) document “Standards for
Internal Control in the Federal Government,” 21 “[M]anagement is responsible for developing the
detailed policies, procedures, and practices to fit their agency’s operations and to ensure that they
are built into and an integral part of operations.” However, Kearney found that neither DS nor
OBO had developed or documented standard policies and procedures for requesting funding for
most physical security-related needs at posts. Many questionnaire respondents, 57 of 96 (59
percent), indicated that the written policies and procedures for requesting funds were “very
adequate” or “somewhat adequate.” However, Kearney did not identify, either in the
Department’s FAM or the Foreign Affairs Handbook (FAH) or other available information from
DS or OBO in any documented format, formal policies and procedures for requesting funding for
minor physical security upgrades, major physical security upgrades, or other security issues such
as FE/BR products. 22 In addition, there were no standard formats or templates for post to use to
make their requests.

        The process to request funding for physical security needs is initially conducted
informally, primarily through emails, until a preliminary decision is made to approve the request.
Although initial discussions are normally between the post security official and the Desk Officer,
both DS and OBO officials stated that posts sometimes bypassed the Desk Officer and contacted
OBO officials directly. One post security official commented, “There seems to be no formal
process other than trading emails with [points of contact] in various DS and OBO offices – if
there is, it’s not clear to the [people in the] field.”

        In addition to the initial requests, there were no standard policies and procedures for
responding to the requests. Responses to the OIG questionnaire indicated that posts received
notifications that their formal requests were not funded in different manners, including cables,
emails from OBO or DS, and telephone calls from OBO or DS, or they were not notified at all.
One respondent indicated that there needs to be “a better process to new [Assistant] RSOs and
RSOs on whom to contact in their region and what the entire process from request to receiving
funds looks like.”

        Some post security officials expressed confusion about the roles and responsibilities of
DS and OBO in the request process. In discussions with both DS and OBO regarding each
bureau’s responsibilities for physical security-related requests, officials referred Kearney to the
Security Equipment Responsibilities Matrix (SERM). The SERM is a guide that identifies the
offices responsible and funding sources for the installation, maintenance, and repair of security
equipment. However, the SERM does not describe the processes for requesting funds, and it
does not include all physical security-related items. For example, although the SERM contains

21GAO/AIMD-00-21.3.1, Nov. 1999, p. 7.


22OBO has developed and documented policies and procedures for requesting R&I funds in the “Repair and


Improvement Program Cookbook,” which is available on OBO’s SharePoint site.


                                                 19
                                            UNCLASSIFIED
                                             UNCLASSIFIED




information relating to the installation and maintenance of FE/BR doors, it does not provide
similar information for perimeter walls. DS officials stated that the SERM was designed to
address technical, rather than physical, security requirements. If physical security-related items
do not have a technical security aspect, the items are not included in the SERM. One respondent
commented, “While the security funding matrix is very helpful, it is not all-inclusive and still
leaves wiggle room as to where responsibility falls on some things.” Another respondent
commented that there “seems to be little coordination between DS and OBO at the [Washington,
DC] level on security upgrade projects, and it’s unclear who is in charge of these for both
funding and execution as many of these projects do not fit into the security equipment matrix.”

        DS and OBO officials agreed that the process for requesting funds for physical security-
related needs was complicated but stated that it was very difficult to develop a standard process
for posts to use because each physical security-related need was unique. The officials further
stated that post security officials should contact the Desk Officers, who will guide the post
officials through the process to request funds. Although responses to the OIG questionnaire
indicated that Desk Officer assistance had been beneficial, it was clear that post security officials
believed that DS and OBO needed to develop a better method to instruct posts in how to request
funding. In addition, DS and OBO need to develop a standardized, timely method to respond to
posts about the decisions made on each request.

         As of September 2013, DS was taking action to improve the process for posts to request
funding for physical security needs by developing a SharePoint 23 tool to be used for
documenting and tracking posts’ physical security needs. This tool is planned to allow RSOs to
directly enter into SharePoint specific physical security-related information for different types of
facilities. The tool could eliminate or decrease the need for and reliance on individual requests.
However, DS officials stated that they did not expect the tool to be fully populated with post data
until FY 2016.

Some Questionnaire Respondents Believed Training Was Not Sufficient

        GAO’s “Standards for Internal Control in the Federal Government” states that
“management needs to identify appropriate knowledge and skills needed for various jobs and
provide needed training.” According to the results of the questionnaire, however, 41 (51
percent) of 81 respondents indicated that the training for requesting funds for physical security
needs was either “somewhat inadequate” or “very inadequate,” while only 23 (28 percent) of 81
respondents selected “somewhat adequate” or “very adequate.” Additional written comments by
some respondents to the questionnaire provided detail as to the deficiencies of the training to
request funding. For example, one respondent commented that they had “never received any
instruction as to the proper way to request money for funding of physical security upgrades. I
know nothing about the process by which this happens or how these decisions are made.”
Another respondent stated that the “RSO training related to the physical security funding process
is wholly inadequate.” A third respondent stated that they did not “think many people ever
receive training in the Department of State on how to request assistance. It is more a matter of

23SharePoint is a Microsoft Web application platform that provides Intranet portals, document and file management
collaboration, system migration, process integration, and workflow capabilities.
                                                  20
                                             UNCLASSIFIED
                                        UNCLASSIFIED




personal motivation—if you want to achieve something, you look up the contact name in the
[global address list] or on the intranet for the section which makes most sense.”

        According to DS officials, RSOs receive training on how to request funding for physical
security-related needs during Basic Regional Security Officer training, which all RSOs attend
before they leave for their overseas assignments. Kearney noted that the training curriculum and
related training materials for physical security contained some information indicating that
funding requests for minor and major physical security upgrades were covered on a limited basis
during the training. Although post security officials could contact Desk Officers for assistance,
the responses to the questionnaires indicate that post security officials would prefer additional
training on the process to request funding.

Lack of Adequate Process Could Discourage Posts from Requesting Funding or Lead to
Posts Funding Projects Directly

        The lack of standard documented policies and procedures for requesting physical security
funds and the resulting lack of understanding of those processes may dissuade post security
officials from submitting requests for funding. In fact, two respondents to the OIG questionnaire
indicated that they did not formally request funding for all of their physical security needs
because their posts considered the process to be confusing or difficult. If even one post does not
request funds for a significant security need, that post may become more vulnerable to an attack
that could result in destruction of property, injury, or loss of life.

       In addition, post security officials who do not clearly understand the request process may
submit requests that have insufficient information or support or to the incorrect individuals. If
requests are not submitted correctly, they must be resubmitted, which requires additional time
and may delay the process for obtaining needed physical security items.

        Further, 22 respondents (17 percent) stated that their physical security needs in FY 2012
resulted from the establishment of new physical security requirements, and 18 (14 percent) stated
that their needs resulted from an increase in physical security-related risks. Although, in general,
most post security officials understood the processes to request physical security funding and
found the processes easy to use, an increase in the number of requests because of increased
requirements or risks may make the existing informal system less able to accommodate the
requests in a manner that ensures that critical physical security needs are addressed effectively
and in a timely manner.

       Recommendation 1. OIG recommends that the Bureau of Diplomatic Security, in
       coordination with the Bureau of Overseas Buildings Operations, develop and implement
       standard policies and procedures for requesting funds for physical security-related needs
       and document the policies and procedures in a manner that is easily accessible by post
       security officials (for example, in a “physical security funding handbook”).
       Consideration should be given to how the SharePoint tool currently in development can
       be used to simplify the request processes.


                                             21
                                        UNCLASSIFIED
                                UNCLASSIFIED




DS Response: DS stated that it “currently has a process for posts that require additional
funding” and that the “process will be clearly articulated as part of an annual operating
cable sent to RSOs.” DS noted that posts are instructed “to send a front channel cable
outlining the security requirement and include funding implications.” DS further stated
that “a formal front channel cable funding request with direct response from the
appropriate DS program office” and funding validation are more appropriate than using
SharePoint.

OBO Response: OBO suggested that OIG change the recommendation from “physical
security-related needs” to “physical security upgrades.” According to OBO, the
“distinction is needed since funding is near the end of the process.”

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that DS, in conjunction
with OBO, has developed and implemented standardized policies and procedures for
requesting funds for physical security-related needs. OIG does not believe it is necessary
to change “physical security needs” to “physical security upgrades” in the
recommendation. OIG expects that the policies and procedures will provide guidance for
requesting funds for all types of physical security deficiencies and should not be limited
to upgrades.

Recommendation 2. OIG recommends that the Bureau of Overseas Buildings
Operations develop and implement a process to respond to posts’ formal requests for
physical security-related funding, which should include commitments to respond within
certain timeframes.

OBO Response: OBO concurred with the recommendation, noting that “funding will be
part of the overall process developed” for Recommendation 1.

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that OBO has
developed and implemented a process and timeframes for responding to requests for
physical security-related funding.

Recommendation 3. OIG recommends that the Bureau of Diplomatic Security develop
and implement a methodology to periodically communicate the processes to request
funds for physical security-related needs to all post security officials.

DS Response: DS concurred with the recommendation, stating that it will “explore the
possibility of integrating funding guidance and/or a funding request process” within its
new Physical Security Survey site or Project Management Solution, as well as include
“language about requesting funds for physical security upgrades in its annual operating
cable.”

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that DS has developed
                                     22
                             UNCLASSIFIED
                                        UNCLASSIFIED



       and implemented a methodology to periodically communicate the processes to request
       funds to all post security officials.

Finding C. Department Did Not Have Information To Ensure Highest
Priority Security Needs Were Funded
         Kearney could not determine the extent to which the Department used physical security
funds for the highest priority physical security needs at overseas posts during FY 2012. During
that fiscal year, the Department funded four major physical security upgrades, 85 minor physical
security upgrades, and 10 major FE/BR projects. However, Kearney could not determine
whether the highest priority security needs were funded for the following reasons:

           •		 DS did not have a comprehensive list of all post physical security deficiencies.
           •		 Neither DS nor OBO maintained a list of posts’ FY 2012 requests for physical
               security funding and the disposition of those requests.
           •		 Neither DS nor OBO had formal processes to prioritize physical security needs.
               Instead, decisions on which project to fund were often made by one individual
               without documented standards and guidance for prioritizing physical security
               needs.
           •		 DS and OBO did not have sufficient formal processes for coordinating with each
               other to establish standards for determining priority and to agree on funding
               decisions.
           •		 Neither DS nor OBO had developed a comprehensive long-range physical
               security plan that would help focus attention on critical needs.

        For the reasons cited, the Department could not ensure that the highest priority physical
security needs at overseas posts were corrected and that the posts’ vulnerability to threats had
therefore been reduced sufficiently.

Complete Information Needed To Prioritize Post Physical Security Needs Was Not
Maintained

        GAO’s “Standards for Internal Control in the Federal Government” states that “[i]nternal
control and all transactions and other significant events need to be clearly documented, and the
documentation should be readily available for examination.” However, the Department did not
have the information needed to prioritize post physical security needs. Specifically, DS did not
have a comprehensive list of physical security deficiencies at all overseas posts, and neither DS
nor OBO maintained a list of posts’ FY 2012 requests for physical security funding or the
disposition of those requests.




                                             23
                                        UNCLASSIFIED
                                              UNCLASSIFIED


        Comprehensive List of Physical Security Deficiencies Was Not Available

       DS did not have a comprehensive list of physical security deficiencies at all overseas
posts. When Kearney requested such a list, DS officials stated that a comprehensive list did not
exist.
                                                                                    OBO Maintains
        Kearney found that a comprehensive list was not                      Comprehensive List of R&I Needs
available because DS did not have sufficient processes in       Although the Department does not
place for collecting the information and developing such a      maintain a list of physical security-related
list. The FAM 24 requires that RSOs at each post conduct a		 needs, it has other programs that it could
physical security survey of their post facilities at least 	    use as a basis for developing a
once every 3 years to determine whether the facilities          comprehensive tracking process for
                                                                physical security-related deficiencies. For
meet OSPB security standards and to identify physical           example, for R&I, OBO obtains requests
security deficiencies requiring correction. RSOs provide        from posts through a formal process,
the completed physical security survey to DS’ 	                 normally once a year; has a formal
International Programs Directorate. 25 The directorate		        process for prioritizing the requests; and
maintains the surveys in a centralized DS repository. In        maintains a complete prioritized list of
                                                                R&I requirements in the Buildings
addition, RSOs provide a copy of the survey to their            Management Integrated System.
respective Desk Officer and inform the Desk Officer of
the physical security deficiencies that arise between survey reporting periods. However, the
physical security deficiencies identified during the surveys and reported by posts were not
compiled and tracked aggregately by DS. Instead, each of the Desk Officers determined how
they would track and monitor the physical security deficiencies at the posts for which they were
responsible.

        Although the physical security survey results could provide a basis for compiling a
comprehensive list of all physical security deficiencies worldwide, the survey as structured may
not provide all of the information necessary. Specifically, the survey form was not constructed
in a manner that enables the RSO to complete it efficiently or the DS Desk Officer to interpret
the results easily. For example, OSPB standards provide physical security requirements for eight
different types of facilities. 26 However, the same survey form is used for all types of facilities
and for all threat categories, and the form does not include information on the requirements for
each type of facility being assessed and does not include the specific standards that apply to a
post based on its threat category. This format requires that RSOs spend additional time looking
up the standards for each facility.

       In addition, the survey consists of many open-ended questions that require the RSO to
describe an aspect of physical security rather than simply identify whether or not the facility
meets that aspect of the applicable standards. For example, one question instructs RSOs to
“describe perimeter fence/wall” rather than stating that the perimeter wall should be a certain

24 12 FAM 315.2c, “OSPB Security Standards – Exception Authority.”


25 12 FAM 425a, “Regional Security Officer (RSO) Reporting Requirements.”


26 The eight types of facilities are a Chancery or Consulate, Sole Occupant of Building or Compound, Tenant in a 

Commercial Office Space, New On-Compound Housing; Public Office Facility, Voice of America Relay Stations,


Unclassified Warehouse, and Public Diplomacy Facility.


                                                   24
                                              UNCLASSIFIED
                                        UNCLASSIFIED




height based on the threat level of the post and asking the RSO to report on whether the
perimeter wall meets this requirement. Because the RSOs simply give a description of the wall
without explicitly pointing out whether a standard was met or a deficiency existed, the
responsible Desk Officer had to make that determination based on the description.

         Before the beginning of this audit, DS recognized the need to track physical security
deficiencies and maintain a comprehensive list of physical security needs for all posts in one,
easily-accessible location. As discussed in Finding B, as of September 2013, DS’ Physical
Security Division had been developing a new physical security survey, using SharePoint, that
would track all areas of non-compliance with physical security standards in a comprehensive and
uniform manner. The SharePoint survey addresses the flaws in the current survey process. For
example, the SharePoint tool will include separate survey forms for each of the eight types of
facilities, and each form will include the specific standards for that type of facility. RSOs will
use drop-down menus and other tools to indicate whether or not the facility being assessed is in
compliance with the standards. In addition, RSOs will be able to provide additional descriptive
information for non-compliant facilities, which will make it easier for DS to capture all identified
physical security deficiencies at all posts. A DS official stated that RSOs will be able to update
the information in SharePoint to include new physical security deficiencies as they are identified.
DS officials stated that DS also plans to develop the functionality necessary to consolidate all
physical security deficiencies in SharePoint into one report.

        If implemented successfully, the SharePoint tool could provide DS and OBO with
information on physical security needs at overseas posts that could be used to make informed
funding decisions. However, DS had not developed a full implementation plan for the new
survey tool. Certain aspects of the tool’s use after it was fully populated were still unclear, such
as whether OBO would have access to view the completed surveys and generate reports to obtain
specific information. A complete implementation plan, which includes details of how the tool
will be used across DS offices as well as by OBO, would be key to the successful completion of
this project.

        Additionally, the new physical security survey specifically tracks only areas of non­
compliance with OSPB standards, not other physical security deficiencies such as issues with the
condition of physical security items that may render the items incapable of performing as
intended. For example, if the RSO is assessing the perimeter wall, the survey asks if the wall
was built in accordance with the appropriate standard(s), not whether there are cracks or other
signs of deterioration in the structure that could indicate a deficiency in the facility’s physical
security. The survey form has a text box at the end of each section (for example, perimeter
walls) where RSOs can note these types of physical security deficiencies as well as provide
additional information about the areas of non-compliance identified. Although DS should be
able to generate a report that lists all facilities that are not compliant with the OSPB standards
and the areas of non-compliance, capturing the information on other physical security
deficiencies in the report will be more difficult.

        DS officials stated that they anticipated having the SharePoint survey tool available
during 2014. However, the database will not be populated with complete information for at least
3 years. DS plans to have posts input information during the physical security survey process
                                                  25
                                          UNCLASSIFIED
                                        UNCLASSIFIED




performed once every 3 years. The security survey process is normally performed on a rolling
basis; that is, approximately one-third of overseas posts perform the survey each year. DS
officials stated that a phased-in approach was necessary because of the large number of facilities,
over 2,000, that must be surveyed and the limited number of staff available to analyze survey
results. Therefore, complete information on all overseas physical security deficiencies may not
be available until 2016.

       Complete List of Post FY 2012 Requests for Physical Security Funding Was Not
       Available

        Neither DS nor OBO had a complete list of all funding requests for physical security-
related items made by posts during FY 2012. Kearney requested a complete list of all informal
requests made by RSOs in FY 2012 to DS officials, but DS officials explained that such a list did
not exist. The Desk Officers review and screen post requests and inform the RSOs about which
requests should be formally submitted to OBO. Although the Desk Officers had records, such as
emails, of the requests that they had received from their posts, DS did not compile and maintain
a complete list of posts’ FY 2012 requests, including the requests that posts were advised not to
submit formally.

        Kearney also requested a comprehensive list of all formal requests for funding to OBO,
but OBO officials explained that OBO did not track all incoming requests and that such a list did
not exist. OBO officials stated that requests were tracked informally through ongoing
discussions between OBO staff, DS Desk Officers, and the requesting RSO. OBO maintained
and provided Kearney copies of spreadsheets that listed the major physical security upgrade and
FE/BR projects that OBO had approved and scheduled. OBO officials stated that OBO’s policy
is to fund all requests for projects that are needed to bring the posts into compliance with OSPB
standards. OBO officials stated that they did not believe it was necessary to track post requests
that were not funded because denials were issued very infrequently. However, without a
complete list of the formal requests, Kearney could not determine whether or how many formal
requests were made and how many of those requests were denied.

Formal Processes To Prioritize Physical Security Requests Were Not in Place

        As part of any successful program, an organization should prioritize needs so that funds
can be used in the most efficient and effective manner. In order to prioritize activities, program
managers should implement a systematic process to select projects and allocate resources to
these projects in order to maximize value added. However, neither DS nor OBO had formal
processes in place to prioritize posts’ physical security needs. The processes used by DS to
review posts’ initial informal requests and by OBO to determine which formal requests for major
and minor physical security upgrades and FE/BR projects were funded, were often performed by
one individual without documented standards and guidance.

       DS Review Process

       DS used an informal process to review RSO requests before the RSO could submit a
formal request for funding to OBO. As reported in Finding B, when RSOs identify a need, they
                                             26
                                        UNCLASSIFIED
                                        UNCLASSIFIED




discuss the need with the post’s Desk Officer. In some cases, the Desk Officer may inform the
RSO not to submit a formal request for funding to OBO because the Desk Officer believes that
the request will not be funded. For example, if an RSO identifies a physical security deficiency
that exceeds OSPB minimum standards, the Desk Officer may discourage the RSO from
requesting funds to correct the deficiency. In response to the OIG questionnaire, security
officials at four posts indicated that they were advised by Washington-based officials not to
request funds for their physical security needs. Desk Officers generally based their
determinations on information provided by the posts, such as information in emails and
photographs if available. There was no standard template for posts to make requests, and there
were no formal standards or guidance for the Desk Officers to use to make their determinations.
Instead, each Desk Officer used his or her own experience and knowledge about the funding
process to determine whether to encourage posts to submit a formal request for funding.

       OBO Processes To Prioritize Physical Security Needs

        OBO had several processes to determine which physical security projects were funded
depending on the type of project. Specifically, OBO had separate processes for major physical
security upgrades, minor upgrades, and FE/BR projects.

        Major Physical Security Upgrades. There were no documented standards or guidance
for prioritizing major physical security upgrade projects. One individual, an OBO program
manager, received all formal requests for funding and determined the priority of the projects.
The manager determined whether to fund a post request based primarily on the post’s ranking on
the DS Risk Matrix. The DS Risk Matrix lists posts in the order of priority. The post ranked
number one on the Matrix receives a vulnerability score of “1,” with the remaining posts’ scores
calculated as a percentage of how vulnerable each post is in relation to the first post. The scores
on the DS Risk Matrix are generally based on the condition of the facility; its SETL threat levels;
and, to a small degree, other factors related to the host country. In addition to the DS Risk
Matrix ranking, the program manager considers other factors, including the overall condition of
physical security at the post and whether the post is scheduled for other major projects, such as
the construction of a NEC or a major rehabilitation.

        When requests are received for major physical security upgrades that cannot be funded
immediately, OBO places them on out-year project schedules. As of April 2013, 55 major
physical security upgrade projects were scheduled to be funded from FY 2012 through FY 2019.
Kearney evaluated the project schedules provided by OBO to determine whether higher threat
posts were prioritized before lower threat posts. Kearney concluded that generally, posts with
higher scores on the DS Risk Matrix were scheduled before posts with lower scores. However,
Kearney identified some instances in which posts with higher DS Risk Matrix scores were
scheduled after posts with lower scores. OBO officials stated that in some cases, projects for
higher threat posts could not always be given higher priority because of physical, logistical, or
host government constraints. For example, a project for one post that was ranked highly on the
DS Risk Matrix was scheduled for FY 2014, but the project was pushed back to FY 2015
because of the lack of host government cooperation. Kearney also identified an instance where a
post that was ranked in the top 15 percent of the most vulnerable posts on the DS Risk Matrix
was not scheduled for an upgrade until FY 2017, while 25 of the 29 posts scheduled for upgrades
                                                 27
                                        UNCLASSIFIED
                                         UNCLASSIFIED




between FY 2012 and FY 2016 were ranked lower. An OBO official explained that this project
had been pushed back on the schedule because of a reduction in funding from the initial budget
requests that OBO had submitted. Although the funds available for physical security-related
projects may not be sufficient to cover the costs of a large project at a vulnerable post, the funds
may cover several smaller, needed projects at less vulnerable posts.

        Minor Physical Security Upgrades. There were no formal standards or guidance for
prioritizing minor physical security upgrade projects. OBO officials explained that OBO
generally funds all minor physical security upgrade projects. When requests are received, an
OBO manager determines whether the request is for a valid minor project. If it is a valid project,
OBO either funds it immediately or delays the project until it is feasible. For example, if a post
requests multiple minor projects, OBO may fund a few of the projects initially and fund the
remaining projects after the post completes the initial projects. OBO does not track the minor
projects that have been postponed. OBO officials stated that OBO ensures that pending minor
projects do not get overlooked by having ongoing conversation with RSOs and Desk Officers
regarding the statuses of their minor projects. However, according to the responses to the OIG
questionnaire, of 117 requests for minor physical security needs, only 85 were funded, meaning
that 32 were not funded.

        FE/BR Projects. There were no documented standards or guidance for prioritizing
FE/BR projects. Requests for FE/BR projects are reviewed by one individual, an OBO program
manager. The manager makes prioritization decisions based upon several factors. Specifically,
the manager considers the information provided by the requesting post, such as photographs of
faulty equipment; the post’s SETL threat ratings; and whether a major rehabilitation project,
major upgrade project, or construction of a NEC is scheduled for that post in the near future.

       When requests are received for FE/BR upgrades that cannot be funded immediately,
OBO places the requests on out-year project schedules. Kearney reviewed the out-year project
schedules for FY 2011 through FY 2013 and found that 31 FE/BR projects were scheduled to
begin during that period. Kearney evaluated the FE/BR project schedule provided by OBO to
determine whether posts with a higher SETL threat rating were scheduled before posts with a
lower rating. Kearney concluded that in general, posts with a high SETL threat rating were
scheduled before posts with a lower rating.

         Repair and Improvement Projects. OBO documented standards and guidance for
prioritizing R&I projects. OBO’s “Repair and Improvement Program Cookbook” provides
detailed instructions and operational guidance for the R&I process, including how R&I requests
are prioritized. When R&I requests are received, Area Management Officers within OBO’s
Office of Area Management score the requests by assigning weighted factors to 14 specific
criteria to define the level of importance of the requests. The “BMIS Scoring Guide” defines the
scoring factors and provides recommended scores for various facility and building system
conditions. Scored requests are reviewed and approved by OBO management. Approved
requests become R&I requirements, which are ordered by the priority score. The higher the
priority score, the more likely the project will be funded.


                                              28
                                         UNCLASSIFIED
                                        UNCLASSIFIED




Coordination Between DS and OBO Was Not Sufficient

        GAO’s “Standards for Internal Control in the Federal Government” states, “Effective
communication should occur in a broad sense with information flowing down, across, and up the
organization. In addition to internal communication, management should ensure there are
adequate means of communicating with, and obtaining information from, external stakeholders
that may have a significant impact on the agency achieving its goals.” Although DS and OBO
share responsibility for ensuring that posts’ physical security needs are addressed, coordination
between the bureaus to establish prioritization standards was not sufficient.

        Although DS is responsible for protecting Americans overseas and establishing physical
security standards, DS had not been sufficiently involved in the decision-making process to
prioritize and fund physical security projects. DS Desk Officers are in regular communication
with RSOs to understand posts’ physical security needs and the importance of funding those
needs. However, a DS official stated that once a post submits a formal request for physical
security funding to OBO, DS’ Project Coordination Branch does not play a role in the
prioritization of the major physical security upgrade projects. Because OBO is appropriated the
funds for addressing physical security deficiencies, OBO takes the lead in determining which
physical security projects will be funded and when. DS and OBO officials meet on a weekly
basis to discuss the requests for physical security projects that have not been funded and to gain
an understanding as to why the requests were not funded. This meeting provides DS officials an
opportunity to have input into the decision-making process. For example, during these meetings,
DS may emphasize the importance of a project to OBO and explain the physical security
deficiencies that need to be corrected. However, there is no formal process in place for DS to
object to OBO’s decisions.

        Post security officials identified concerns with the lack of coordination between DS and
OBO. For example, one respondent to OIG’s questionnaire stated, “The [l]argest problem with
physical security funding is that OBO . . . considers it a DS thing and DS . . . does not control
funding. . . . This confuses the whole process, introduces delays and makes it cumbersome.” It
is essential that OBO and DS improve their process for sharing information to assist in the
decision-making process and work together to ensure that the best funding decisions are being
made.

        Kearney identified several significant instances in which the lack of coordination
between OBO and DS created the potential for disagreements in determining which physical
security needs should be funded. For example, OBO and DS had differing interpretations of how
OSPB standards should be applied, the bureaus did not agree on the factors to prioritize major
physical security upgrade projects, and the bureaus had not established specific criteria for
funding physical security projects at posts scheduled to receive a NEC or undergo major
rehabilitation.




                                             29
                                        UNCLASSIFIED
                                              UNCLASSIFIED



          Inconsistent Interpretation of Security Standards

        DS and OBO had differing interpretations of the OSPB standards. OBO officials stated
that OBO makes decisions on which projects to fund based on the OSPB standards in the FAH. 27
OBO officials stated that OBO’s priority is to bring posts that are not in compliance with OSPB
standards into compliance. They considered the OSPB standards to be the maximum physical
security standards required for a post and believe that projects that are not related to standards, or
that go “above and beyond” the standards are difficult to prioritize. For example, OBO would
not normally fund physical security projects that are outside the perimeter of a compound. DS
officials stated that there are no policies in place to determine who has funding responsibility for
items outside perimeter walls. Kearney reviewed the standards and the SERM and determined
that, except for vehicle barriers, there were no policies requiring physical security measures
outside the perimeter wall.

        DS officials stated that they consider the OSPB standards to be the minimum
requirements for physical security that posts must meet and believe that there are circumstances
in which it is necessary to go above the minimum standards. According to DS officials, high-
threat posts may have security needs that are above and beyond the standards listed in the FAH.
For example, in response to a bombing that occurred at a building near the U.S. embassy at one
post, DS officials requested that OBO fund barriers to block off the road leading to the chancery
entrance. However, OBO initially did not fund the request because the barriers would be placed
outside the perimeter of the compound and were therefore not required by OSPB standards. 28 In
another example, in FY 2012 a post requested funding to replace or repair the “tire killers”
located outside the compound perimeter because some of the spikes were not functional.
However, OBO did not fund the request because funding items outside of the perimeter was not
specified in the standards.

        Nevertheless, OBO has, in some cases, funded requests for projects that go beyond OSPB
standards. For example, in FY 2012 OBO funded a post’s request to install barbed wire.
Generally in these cases, DS officials work with OBO officials to provide OBO a better
understanding of the need for the projects. However, when OBO does decline to fund physical
security needs that DS considers essential, the DS Desk Officers attempt to identify available
funding that can be used. For instance, in FY 2012, the Office of Physical Security Programs
funded six physical security projects, totaling $259,820, that were related to perimeter security.

        Of the six DS-funded physical security projects in FY 2012, four projects were for
Mission Benghazi, which received the DS-funds for minor projects in December 2011 and in
February, March, and June 2012. Communications between the requesting RSO, DS, and OBO,
and as reported by the Benghazi Accountability Review Board, indicated that OBO did not fund
the requests because Benghazi was a short-term leased facility. According to the FAH, 29 OBO’s
primary program to fund physical security needs, the Compound Security Program, provides
funding only for Government-owned and long-term leased facilities. Because the standards did

27 12 FAH-5 and 12 FAH-6.


28   According to OBO management, this project was funded in November 2012.


29   4 FAH-1 H-520, “Function Codes, Titles, and Definitions.”


                                                   30
                                              UNCLASSIFIED
                                               UNCLASSIFIED




not require the funding of upgrades at short-term leased facilities, OBO did not fund the requests
for physical security upgrades at Benghazi. 30

        On June 11, 2013, the FAH 31 was updated to state that “[s]tandards and measurements in
this handbook are the required minimum acceptable standards.” Clarifying the intent of OSPB
standards is a useful step in improving the decision-making process for physical security
funding. However, until DS and OBO develop a mutual understanding about the needs at posts,
there could be additional issues with funding of projects to correct high-risk physical security
deficiencies at overseas posts. In addition, to successfully prioritize physical security needs,
objective criteria for ranking the needs, including needs that are not required by OSPB standards,
would be needed.

        Lack of Agreement on Prioritization Factors for Major Physical Security Upgrade
        Projects

        DS and OBO also did not agree on the factors used to prioritize major physical security
upgrade projects. OBO primarily used the DS Risk Matrix to prioritize the projects. DS officials
stated that the DS Risk Matrix was not an appropriate tool for prioritizing physical security
upgrades because it was not developed for that purpose. DS developed the DS Risk Matrix to
support the prioritization of posts that were scheduled to receive a new embassy under the
Capital Security Construction Program. One DS official stated that DS’ official position is that
OBO’s prioritization using the DS Risk Matrix does not align with how DS would prioritize
upgrade projects because certain posts had physical security needs that were not reflected in the
DS Risk Matrix. DS officials stated that they believed a different matrix should be used for
prioritizing major physical security upgrade projects. The new matrix could include many of the
same factors as the DS Risk Matrix, but these factors would be weighted differently to prioritize
physical security upgrades. DS officials stated that they offered to create such a matrix. An
OBO official stated that using the DS Risk Matrix to prioritize major physical upgrade projects
was appropriate because the matrix lists and prioritizes the posts that are not scheduled to receive
a NEC as well as the posts that are scheduled to receive a NEC. Additionally, the OBO official
believed that the use of the DS Risk Matrix was reasonable because OBO does not prioritize the
projects solely based on the threat rankings in the DS Risk Matrix but merely uses the matrix as a
consideration. Nevertheless, OBO officials expressed their willingness to collaborate with DS
on developing a different tool for prioritizing major physical security upgrades.

        Physical Security Projects at Posts Receiving a NEC or Undergoing Major
        Rehabilitation

        To make the most efficient use of a limited budget, OBO may defer funding physical
security needs at posts that are scheduled to receive a NEC or undergo a major rehabilitation
project in the near future. Although this can result in funding efficiencies, it can also leave posts
vulnerable to threats when the planned NEC or major rehabilitation projects are delayed. Delays

30 In January 2013, the Department issued guidance indicating that OSPB standards apply to all permanent, interim,


and temporary diplomatic facilities.


31 12 FAH-5 H-411.1, “Minimum Standards.”



                                                    31
                                               UNCLASSIFIED
                                               UNCLASSIFIED




can result from changes to the list of posts scheduled to receive a NEC 32 and the inherent
complexities involved with planning and executing a large-scale construction project in a high-
risk overseas environment. For example, the 2010 out-year schedule for major physical security
upgrades included one post that was scheduled to receive a major upgrade in FY 2015. This post
was in the top 20 of the DS Risk Matrix. However, that project was deleted from the schedule in
FY 2011 because it was added to the list of posts scheduled to receive a NEC in FY 2017; thus
security improvements would be delayed by an additional 2 years.

        In response to the OIG questionnaire, some post security officials expressed concerns
about such delays. For example, one post security official stated, “We’re supposed to move into
a new facility, but the date keeps changing. We’re over 2 years behind the move. Hard to get
funding when you’re supposed to keep moving to a new post.” Another security official stated
that the “Embassy was slated for an entire rehab in 2014 – since put off to 2017.”

        An OBO official explained that there are instances in which OBO will fund minor
projects to temporarily address physical security needs at a post that is scheduled for a NEC or a
major rehabilitation project. In addition, OBO officials stated that OBO monitors the NEC
project schedule and will consider funding a major upgrade project for a post with physical
security deficiencies if the NEC project is scheduled several years into the future. For example,
one post security official stated that their post “was scheduled for a new embassy project in FY
2016, but then it got pushed out to FY 2023 at which time OBO conducted a survey for a
physical security upgrade project now scheduled for FY 2016.” Kearney verified that this post
was added to the out-year schedule in FY 2012 for a major upgrade project in FY 2016.

        OBO was also reluctant to fund physical security deficiencies at posts that had recently
received a NEC. DS officials explained that physical security standards change constantly and
that posts can be non-compliant with security standards immediately following a major project.
DS officials referred to this situation as the “moving target principle,” where standards change
between the time a project is planned and the time the project is completed. For example, in
June 2013, OIG reported 33 that multiple embassies and consulates that had received new
embassy compounds had physical security deficiencies attributable to changes in physical
security standards since the construction of the compounds was completed. DS officials stated
that once a post receives a NEC, major rehabilitation project, or major security upgrade project,
that post would be far less likely to receive Compound Security Program funding. Although
NECs may need physical security upgrades, OBO believes that funding has to be focused on
older buildings that have more OSPB deficiencies than the NECs unless there is a specific threat
or need at a NEC.




32 DS publishes a Vulnerability List, which ranks facilities according to their vulnerability across a wide variety of
security threats on an annual basis, as mandated by SECCA. This list is then used to establish the Top 80 list of
posts in which NECs are needed to reduce security vulnerabilities. The Top 80 list shows which posts are scheduled
to receive a NEC.
33 Audit of Department of State Compliance With Physical/Procedural Security Standards at Selected High Threat
Level Posts (AUD-SI-13-21, Jun. 2013).
                                                    32
                                               UNCLASSIFIED
                                           UNCLASSIFIED




Long-Range Plan to Address Physical Security Deficiencies Was Lacking

        The Department did not have a comprehensive long-range physical security plan. A
long-range plan helps an organization focus on critical needs and provides a sense of direction
and purpose. Long-range plans also make day-to-day operations more effective and can be used
as the vehicle to guide decision-making for spending.

        Although the Department did not have a long-range plan to address physical security
deficiencies, OBO developed and issued a Long-Range Plan that provided detailed information,
post by post on new construction projects and needed repairs and improvements. 34 According to
OBO, the Long-Range Plan is needed to communicate and coordinate maintenance and
operations needs to stakeholders—specifically, it helps stakeholders better understand how OBO
is addressing challenges and identifying long-term needs. The Long-Range Plan also collocates
projects and maintenance needs in one document, serves as a budget tool, and supports long-term
strategic efforts.

         Kearney reviewed the Long-Range Overseas Maintenance Plan issued in 2010 and found
that it included some compound security upgrade projects for posts; however, almost all of these
projects were for the installation of mantraps and compound access controls and for FE/BR
upgrades. The security standards for these three areas were upgraded, thus OBO included the
new requirements in the long-range plan. However, existing physical security needs were not
included in the long-range plan.

        Although OBO maintained various informal lists detailing when certain physical security
projects would be funded, it did not have a plan that illustrated physical security deficiencies, the
priority of the deficiencies, and the cost of addressing those deficiencies. Physical security
deficiencies are a high-priority issue that should have equal or greater focus than construction or
maintenance projects. Having a Long-Range Physical Security Plan would be beneficial to
OBO, DS, and all other stakeholders interested in the Department’s physical security needs, and
it would increase the transparency of the funding process.

Important Physical Security Needs Might Not Have Been Funded, and Accountability Was
Lacking

         Without complete information on all physical security needs at overseas posts, the
Department cannot ensure that it funds the highest priority needs. The Department cannot
objectively make a determination about which projects are high priority without a comprehensive
list of all physical security needs. Significant physical security deficiencies at all posts, or less
significant deficiencies that may create a greater risk at higher threat posts, may not be funded
and corrected, leaving some posts more vulnerable to threats. The lack of formal prioritization
processes and standards may also result in inconsistent funding decisions on similar physical
security deficiencies at posts.


34 Prior to 2012, OBO issued two separate plans—the Long-Range Overseas Buildings Plan and the Long-Range
Overseas Maintenance Plan.
                                                33
                                           UNCLASSIFIED
                                        UNCLASSIFIED



        In addition, accountability cannot be established without documentation supporting all
post requests, both informal and formal, and the disposition, including the denial, of those
requests. Some RSOs expressed concerns that they might be held accountable if they did not
make a formal request and an adverse event happened at their post. For example, one post
security official stated that because the Department did not always send formal denials for
requests for physical security funding, the posts ended up “stuck holding the responsibility if
something happens.” This official stated that they believed that DS or OBO should be “forced to
send a formal denial” rather than the post being put in “the position of . . . I talked to DS/OBO
and they said no.” Another respondent stated, “RSOs have no real mechanism to force OBO . . .
to take appropriate action.” The lack of documentation of all decisions made during the request
and prioritization processes will also make it difficult to identify breakdowns in the processes
and correct them before attacks occur.

       Further, if RSOs are discouraged from requesting funding for a physical security need or
do not understand the prioritization processes and why their requests are denied, RSOs may not
inform or communicate all physical security needs and deficiencies to their respective Desk
Officers. This could create an environment in which RSOs feel that they can report only certain
types of physical security needs, thereby leaving posts, especially high-threat posts, more
vulnerable to threats.

        The lack of coordination between DS and OBO may also create confusion about which
bureau is responsible for addressing physical security deficiencies outside of OSPB standards,
what risk factors should be considered when determining which projects to fund, and how to
handle physical security deficiencies at posts where future work is planned. Both DS and OBO
are ultimately responsible for ensuring that U.S. Government employees are safe and secure at
overseas facilities. Therefore, it is essential that decisionmakers have the most up-to-date
information from both DS and OBO on the current environment at the 280 overseas locations to
ensure that informed physical security funding decisions are made.

       Recommendation 4. OIG recommends that the Bureau of Diplomatic Security (DS), in
       coordination with the Bureau of Overseas Buildings Operations (OBO), develop and
       implement a process to collect and maintain a comprehensive list of all posts’ physical
       security-related deficiencies. The list of physical security deficiencies should include all
       needs, not just those that have been approved or instances of non-compliance with
       standards. The process should also require that the list be updated when new physical
       security deficiencies are identified. If DS and OBO elect to use the DS SharePoint Tool
       as the basis for maintaining a list of physical security needs, DS should ensure that
       OBO’s requirements are integrated into the development of the tool and that OBO has
       sufficient access to the information.

       DS Response: DS concurred with the recommendation, stating that it had deployed a
       Physical Security Survey site, which, in addition to its Project Management Solution,
       “will provide a comprehensive list of physical security deficiencies.” However, DS noted
       that the “physical security requirements are based upon standards set forth by” OSPB.
       DS further stated that the recommendation is “very inclusive” and “does not take into
       account the difference between ‘needs’ and ‘wants,’” which “would add an un-vetted
                                                34
                                        UNCLASSIFIED
                                UNCLASSIFIED



request and label it as a security deficiency.” DS added that it planned to “meet with
OBO to determine OBO requirements to be considered for integration into the new”
SharePoint Tool.

OBO Response: OBO stated that “the list of physical security deficiencies should
consist of valid deficiencies vetted by DS against the appropriate” standards. OBO stated
that this would “provide a validated universe of requirements to be addressed, with new
valid requirements added as they are identified.”

OIG Analysis: OIG considers the recommendation unresolved. OIG agrees that the list
of physical security deficiencies to be maintained by the Department should include only
“valid” deficiencies. However, there seems to be a discrepancy between what DS, OBO,
and OIG consider to be “valid” physical security deficiencies. The list of deficiencies
maintained by the Department should include any instance when the physical security at
a post is not in accordance with OSPB standards, as suggested by DS and OBO.
However, OIG believes the list should also include instances where the condition of the
physical security-related equipment or structure no longer allows the item to function
properly, which is not always considered a deficiency by the Department. For example,
during the exit conference, one DS official suggested that if a FE/BR door had a broken
lock, it should not be considered a physical security deficiency, because the existence of a
FE/BR door meant that OSPB standards were met. The DS official considered the
broken lock to be a maintenance issue, not a physical security deficiency, and did not
believe that it was necessary to track this item as a physical security deficiency. In
addition, as explained in the report, posts may have physical security deficiencies that are
not addressed by OSPB standards.

The Department should maintain a comprehensive list of all physical security-related
deficiencies. The list could identify those that have not been approved, are maintenance
related, or are not required by standards. However, these deficiencies should be included
in a comprehensive and transparent list, and these items should be considered when
making decisions on which deficiencies have the highest priority for funding. OIG will
resolve this recommendation once DS, in coordination with OBO, agrees to develop and
implement a process to collect and maintain a comprehensive list of all posts physical
security-related deficiencies, not just one type of deficiency.

Recommendation 5. OIG recommends that the Bureau of Diplomatic Security develop
an implementation plan for the new SharePoint physical security survey tool. This
implementation plan should establish a reasonable deadline for all posts to populate the
tool with information on physical security deficiencies and should ensure that the tool has
the functionality needed to generate sufficient reports in order to more easily determine
posts’ physical security needs.

DS Response: DS concurred with the recommendation, stating that it “has established an
implementation timeline.” DS further stated that it had “deployed the physical security
survey site four months ago” and that its goal was to survey all Chief of Mission facilities
“within three years.”
                                         35
                               UNCLASSIFIED
                                UNCLASSIFIED





OIG Analysis: OIG considers the recommendation unresolved. The recommendation
required DS to develop an implementation plan for the SharePoint physical security
survey tool. One component of an implementation plan would be timeframes for
implementation, but there are many other items that should be a part of an effective
implementation plan. For example, the plan would include details of how the tool would
be used across DS offices as well as by OBO. The plan would also ensure that the
SharePoint tool had the functionality to generate sufficient reports related to physical
security deficiencies. OIG will resolve this recommendation once DS agrees to develop a
comprehensive implementation plan for the SharePoint physical security survey tool.

Recommendation 6. OIG recommends that the Bureau of Overseas Buildings
Operations develop and implement a formal process to document all formal requests
made by posts for physical security funding, not just the requests that have been funded
or approved, and the disposition of those requests.

OBO Response: OBO concurred with the recommendation, noting that “funding will be
part of the overall process developed” for Recommendation 1.

OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that OBO has
developed and implemented a process to document all formal requests for funding and
the disposition of those requests.

Recommendation 7. OIG recommends that the Bureau of Diplomatic Security develop
and implement a formal standardized process to vet informal physical security-related
funding requests made by posts, which would include documenting all informal requests
made by posts for physical security funding, not just the requests that have been
approved, and the disposition of those requests.

DS Response: DS concurred with the intent of the recommendation but suggested that
the recommendation be reworded “to state that DS does not have “informal” requests and
all formal requests” are reviewed as outlined in its response to Recommendation 1.

OIG Analysis: OIG considers the recommendation unresolved. DS did have an
informal process in place to vet posts’ requests before the RSO could submit a formal
request for funding. RSOs and Desk Officers discuss a post’s physical security needs. In
some cases, the Desk Officer tells the post not to submit a formal request because the
Desk Officer believes that it will not be funded. Because this is an informal process,
there is no assurance of consistency in decisions being made about what should be
submitted for funding. In addition, the Department does not have a comprehensive list of
what posts have identified as deficiencies or an accurate report of the disposition of the
deficiencies, which makes accountability for decisions made on funding more difficult to
determine. OIG will resolve this recommendation once DS agrees to develop and
implement a formal standardized process to vet informal physical security-related
funding requests made by posts.
                                          36
                                 UNCLASSIFIED
                                UNCLASSIFIED





Recommendation 8. OIG recommends that the Bureau of Overseas Buildings
Operations, in coordination with the Bureau of Diplomatic Security, develop and
implement formal standardized processes to prioritize physical security-related
deficiencies at posts by category, such as major physical security upgrades, forced­
entry/ballistic-resistant projects, and minor physical security upgrades. The
prioritizations should be performed based on a comprehensive list of all physical security
needs and should be periodically updated based on changes in risk factors or posts’
needs. The processes used to perform the prioritizations should be documented and
repeatable. In addition, in developing the processes, consideration should be given to
how the Overseas Security Policy Board standards will be utilized, what risk factors will
be considered, and what impact upcoming major rehabilitation projects or new
construction would have on the prioritized rankings.

OBO Response: OBO concurred with the recommendation. However, OBO stated that
“the prioritization should be performed on a comprehensive list of DS validated
deficiencies.”

OIG Analysis: OIG considers the recommendation resolved based on OBO’s
concurrence. This recommendation can be closed when OIG reviews and accepts
documentation showing that OBO, in coordination with DS, has developed and
implemented formal standardized processes to prioritize physical security-related
deficiencies. OIG agrees that OBO should not prioritize physical security-related
deficiencies that DS has determined are not valid deficiencies. However, OIG again
emphasizes that the list of physical security-related deficiencies should be comprehensive
and should note the disposition of the deficiencies, including those determined by DS to
not be valid and which OBO will not include in its prioritization process.

Recommendation 9. OIG recommends that the Bureau of Diplomatic Security (DS), in
coordination with the Bureau of Overseas Buildings Operations (OBO), better define the
roles and responsibilities of each bureau to ensure that both bureaus are fully involved in
the process to prioritize and fund physical security needs at posts. As part of developing
these roles and responsibilities, a process should be established to have a neutral party
review and make decisions when disagreements arise about funding decisions between
OBO and DS.

DS Response: DS concurred with the intent of the recommendation but stated that “DS
and OBO work collaboratively” to ensure that the “proper State Operations appropriation
is used to fund physical security upgrades.”

OBO Response: OBO concurred with the recommendation “with the exception of the
neutral party.” OBO stated that it did not think there were “funding decisions” that could
not be resolved between OBO and DS; however, if there were, the Under Secretary for
Management would make the decision.


                                     37
                                UNCLASSIFIED
                                UNCLASSIFIED




OIG Analysis: OIG considers the recommendation resolved. This recommendation can
be closed when OIG reviews and accepts documentation showing that DS and OBO have
better defined roles and responsibilities to ensure that both bureaus are fully involved in
the process to prioritize and fund physical security needs at posts. DS and OBO should
include a description of the Under Secretary for Management’s role in the process.

Recommendation 10. OIG recommends that the Bureau of Overseas Buildings
Operations, in coordination with the Bureau of Diplomatic Security, develop and issue a
Long-Range Physical Security Plan.

OBO Response: OBO did not concur with the recommendation, stating that its existing
Long-Range Plan “includes Compound Security Program project details and funding
totals post by post, where applicable.”

OIG Analysis: OIG considers the recommendation unresolved. As OIG noted in the
report, OBO’s Long-Range Plan included some compound security program projects.
However, the Plan did not include all physical security-related deficiencies. An
acceptable alternative to developing a separate long-range physical security plan would
be to expand the existing Long-Range Plan to include all physical security-related
deficiencies. OIG will resolve this recommendation when OBO, in coordination with
DS, agrees to develop and issue a Long-Range Physical Security Plan.




                                     38
                                UNCLASSIFIED
                                        UNCLASSIFIED




                                 List of Recommendations


Recommendation 1. OIG recommends that the Bureau of Diplomatic Security, in coordination
with the Bureau of Overseas Buildings Operations, develop and implement standard policies and
procedures for requesting funds for physical security-related needs and document the policies
and procedures in a manner that is easily accessible by post security officials (for example, in a
“physical security funding handbook”). Consideration should be given to how the SharePoint
tool currently in development can be used to simplify the request processes.

Recommendation 2. OIG recommends that the Bureau of Overseas Buildings Operations
develop and implement a process to respond to posts’ formal requests for physical security-
related funding, which should include commitments to respond within certain timeframes.

Recommendation 3. OIG recommends that the Bureau of Diplomatic Security develop and
implement a methodology to periodically communicate the processes to request funds for
physical security-related needs to all post security officials.

Recommendation 4. OIG recommends that the Bureau of Diplomatic Security (DS), in
coordination with the Bureau of Overseas Buildings Operations (OBO), develop and implement
a process to collect and maintain a comprehensive list of all posts’ physical security-related
deficiencies. The list of physical security deficiencies should include all needs, not just those
that have been approved or instances of non-compliance with standards. The process should also
require that the list be updated when new physical security deficiencies are identified. If DS and
OBO elect to use the DS SharePoint Tool as the basis for maintaining a list of physical security
needs, DS should ensure that OBO’s requirements are integrated into the development of the tool
and that OBO has sufficient access to the information.

Recommendation 5. OIG recommends that the Bureau of Diplomatic Security develop an
implementation plan for the new SharePoint physical security survey tool. This implementation
plan should establish a reasonable deadline for all posts to populate the tool with information on
physical security deficiencies and should ensure that the tool has the functionality needed to
generate sufficient reports in order to more easily determine posts’ physical security needs.

Recommendation 6. OIG recommends that the Bureau of Overseas Buildings Operations
develop and implement a formal process to document all formal requests made by posts for
physical security funding, not just the requests that have been funded or approved, and the
disposition of those requests.

Recommendation 7. OIG recommends that the Bureau of Diplomatic Security develop and
implement a formal standardized process to vet informal physical security-related funding
requests made by posts, which would include documenting all informal requests made by posts
for physical security funding, not just the requests that have been approved, and the disposition
of those requests.

Recommendation 8. OIG recommends that the Bureau of Overseas Buildings Operations, in
coordination with the Bureau of Diplomatic Security, develop and implement formal
                                              39
                                      UNCLASSIFIED
                                        UNCLASSIFIED




standardized processes to prioritize physical security-related deficiencies at posts by category,
such as major physical security upgrades, forced-entry/ballistic-resistant projects, and minor
physical security upgrades. The prioritizations should be performed based on a comprehensive
list of all physical security needs and should be periodically updated based on changes in risk
factors or posts’ needs. The processes used to perform the prioritizations should be documented
and repeatable. In addition, in developing the processes, consideration should be given to how
the Overseas Security Policy Board standards will be utilized, what risk factors will be
considered, and what impact upcoming major rehabilitation projects or new construction would
have on the prioritized rankings.

Recommendation 9. OIG recommends that the Bureau of Diplomatic Security (DS) and the
Bureau of Overseas Buildings Operations (OBO) better define the roles and responsibilities of
each bureau to ensure that both bureaus are fully involved in the process to prioritize and fund
physical security needs at posts. As part of developing these roles and responsibilities, a process
should be established to have a neutral party review and make decisions when disagreements
arise about funding decisions between OBO and DS.

Recommendation 10. OIG recommends that the Bureau of Overseas Buildings Operations, in
coordination with the Bureau of Diplomatic Security, develop and issue a Long-Range Physical
Security Plan.




                                             40
                                        UNCLASSIFIED
                                              UNCLASSIFIED




                                                                                                   Appendix A

                                       Scope and Methodology
        The Office of Inspector General (OIG) contracted with Kearney & Company, P.C., to
conduct a performance audit of the processes used by overseas posts to request funds for
physical security-related activities and the processes used by the Department of State
(Department) to determine which requests for physical security-related activities to fund.
Specifically, the objectives of this audit were to identify the FY 2012 funding mechanisms and
amounts expended for physical security-related activities at Department-owned or -operated
buildings overseas, determine whether the process for posts to request funds for physical security
needs at Department-owned or -operated buildings was easy to use and was understood by post
security officials, and determine to what extent the Department used physical security funds for
high-priority physical security needs at overseas posts during FY 2012.

        Kearney conducted fieldwork for this audit from March to August 2013 at the Bureaus of
Diplomatic Security (DS), Overseas Buildings Operations (OBO), and Budget and Planning.
Kearney planned and performed this audit in accordance with requirements in the Government
Accountability Office’s Government Auditing Standards. Those standards require that Kearney
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for the findings and conclusions based on the audit objectives. Kearney believes that the
evidence obtained provides a reasonable basis for the findings and conclusions based on the audit
objectives.

        To obtain background information for this audit, Kearney researched and reviewed the
U.S. Code; the Department’s Foreign Affairs Manual and Foreign Affairs Handbook, including
the Overseas Security Policy Board standards; the Security Environment Threat List; the Long
Range Overseas Maintenance Plan; prior OIG and Government Accountability Office reports;
and information available on the Department’s Intranet. Kearney reviewed OBO’s Repair and
Improvement Program Cookbook and the Buildings Management Integrated System (BMIS)
overview of the Repair and Improvement program to gain an understanding of the process used
to request funds. Kearney obtained the Basic Regional Security Officer course curriculum and
materials to gain an understanding of the degree to which Regional Security Officers (RSO) are
trained on the process to request funds for physical security needs.

        Kearney met with officials from the Bureau of Budget and Planning and OBO to obtain
an understanding of the sources of funds the bureaus used to address physical security needs at
Department-owned or -operated buildings overseas and the fiscal codes used to record overseas
physical security transactions in the Department’s accounting system. Based on the information
obtained, Kearney identified the fund codes that the Department used for physical security needs.
Kearney also identified the function codes 1 that were specific to physical security-related
activities. Kearney used this information to identify the amounts expended for physical security-
related activities overseas. Specifically, Kearney obtained a detailed transaction listing of

1Function codes are codes used to identify and report on the type of expenses related to the Department’s programs
and activities.
                                                   41
                                              UNCLASSIFIED
                                        UNCLASSIFIED




FY 2012 expense activity from the Department’s domestic accounting system, the Global
Financial Management System (GFMS). Using the security-related fund codes, Kearney
summarized the expense activity by program to identify security-related expenditures. Kearney
then determined the expenses specifically related to physical security using the identified
function codes.

       Kearney met with DS and OBO officials to obtain an understanding of the processes for
requesting and prioritizing physical security-related activities at overseas posts. Specifically,
Kearney met with officials in OBO’s Program Security Operations Branch, OBO’s Office of
Area Management, DS’ Project Coordination Branch, and DS’ Office of Overseas Protective
Operations to gain an understanding of their roles and responsibilities in the physical security
funding process. Kearney also obtained an understanding of the Compound Security Program
and the types of physical security requests funded from officials in OBO’s Program Security
Operations Branch, as well as this branch’s process for receiving and prioritizing requests.

       Kearney met with various officials from OBO’s Office of Area Management to determine
whether they fund any aspects of physical security as part of the Repair and Construction
Program, as well as to learn more about BMIS and how it is used. Kearney met with officials
from both the Forced-Entry/Ballistic-Resistant and Mechanical Engineering Divisions, each of
which manage subprograms within the Compound Security Program, to determine the specific
aspects of compound security upgrades they fund and their process for receiving and prioritizing
requests. Kearney met with officials overseeing OBO’s Value Engineering programs to obtain
information on the value engineering review of all OBO projects and on whether the review has
had any significant impact on physical security projects.

        Kearney also met with DS Desk Officers from the Project Coordination Branch to obtain
an understanding of their role in facilitating and funding physical security requests. Kearney met
with officials from DS’ Overseas Support Branch to learn if that branch, which is responsible for
funding most technical security needs at overseas posts, also funded any aspects of physical
security. Kearney met with DS’ Office of Regional Directors to learn more about their role in
collecting and reviewing security surveys conducted by post security officials. Kearney met with
DS’ Office of Overseas Protective Operations to gain an understanding of whether that office
funds physical security other than through the Residential Security Program. Kearney met with
officials from DS’ Physical Security Division to learn about the new SharePoint site that DS was
creating that will host and retain physical security surveys conducted by post security officials.

        To determine whether the process for posts to request funds for physical security-related
needs was easy to use and was understood, Kearney, in conjunction with OIG, distributed a
questionnaire to post security officials. Information on the methodology used to develop and
distribute the questionnaire is included in the section “Detailed Questionnaire Methodology” in
this appendix.

        To determine the extent to which the Department used physical security funds for high-
priority physical security needs, Kearney requested a comprehensive list of all posts’ physical
security-related deficiencies and a list of posts’ FY 2012 requests. However, these lists were not
maintained by the Department. In addition, Kearney requested, but was unable to obtain,
                                                   42
                                          UNCLASSIFIED
                                              UNCLASSIFIED




standard documented criteria for prioritizing the physical security deficiencies and requests.
Without this information, Kearney was not able to select a sample of post physical security
deficiencies and requests and duplicate the prioritization process. As a result, Kearney could not
determine the extent to which high-priority physical needs were funded.

Use of Computer-Processed Data

        The audit team used computer-processed data obtained from the Department during this
audit. Kearney obtained the FY 2012 trial balance for the Department and details of
expenditures made by the Department during FY 2012 from the Department’s domestic financial
management system, GFMS. The objectives of this audit were not to ensure the accuracy of
expenditures made. The information was instead used to try to determine the amount spent
during FY 2012 on physical security-related activities. Therefore, Kearney did not perform tests
of controls or substantive testing of the expenditure information obtained from GFMS to assess
data reliability. However, GFMS is used to prepare the annual financial statements, which are
audited. Based on how the information was used in this report, Kearney determined that the data
was sufficiently reliable for its needs.

        Kearney obtained reports from BMIS to determine whether requests from high-priority
posts existed for FY 2012 that had not been addressed, scheduled, or funded by the Department.
However, Kearney noted that BMIS was not used to its maximum extent for tracking physical
security needs, and the information in the reports did not reflect the current status of potential
projects. Therefore, Kearney did not validate the information provided and did not use data from
BMIS to draw conclusions.

Work Related to Internal Controls

        Kearney performed steps to assess the adequacy of internal controls related to the areas
audited. For example, Kearney identified control deficiencies that led to its findings related to
the Department’s processes to request funding for and prioritize physical security needs. Work
performed on internal controls during the audit is detailed in the section “Audit Results” of the
report.

Detailed Questionnaire Methodology

        The primary objective of the questionnaire was to obtain feedback from post security
officials as to whether the process to request funds for physical security needs at overseas
buildings was clear and easy to use. OIG requested that responses be limited to funding for
physical security-related needs. OIG’s SharePoint 2 specialist developed and placed the
questionnaire on SharePoint. As post security officials completed and submitted their responses,
Kearney viewed and collected those responses via SharePoint.


2SharePoint is a Microsoft web application platform that provides intranet portals, document and file management
collaboration, system migration, process integration, and workflow capabilities.

                                                   43
                                              UNCLASSIFIED
                                         UNCLASSIFIED



       Identification of Regional Security Officers

        OIG obtained a DS Telephone List, dated July 19, 2013, from the DS Intranet site to
identify RSOs. If the RSO position for a post was vacant on the DS Telephone List, OIG used
the Department’s Telephone Directory of Key Officers List, dated July 22, 2013, which was
obtained from the Department’s Intranet site, to identify the RSO at that location. If there was
no RSO listed on either of these lists, OIG identified the next security officer listed for that post,
such as the Deputy RSO or the Security Analyst.

        OIG emailed the questionnaire with instructions for completion to the 218 security
officials identified. In some cases, OIG received a response to the email with an auto-reply
message that the individual either had transferred from the post or would be out of the office past
the date of the questionnaire’s deadline. In these cases, OIG replaced the original addressee by
emailing the questionnaire to the next security official on the DS Telephone list or to the
alternate person identified in the auto-reply message.

       Completed Questionnaires

        Of 218 questionnaires distributed to post security officials, OIG received 133 completed
questionnaires, for a response rate of 61 percent. Kearney collected the completed
questionnaires via SharePoint and exported the data to an Excel spreadsheet for analysis. Of 133
questionnaires received, Kearney excluded one from its aggregate analysis because a response to
one question contradicted another, along with the fact that the most of the questionnaire had not
been completed. As a result, Kearney analyzed 132 completed questionnaires. The survey and
the survey results are provided in Appendix B.




                                              44
                                         UNCLASSIFIED
                                        UNCLASSIFIED




                                                                                      Appendix B


                                           United States Department of State
                                           and the Broadcasting Board of Governors

                                           Office of Inspector General



                           Physical-Security Funding Questionnaire

The Office of Inspector General (OIG), Office of Audits, is conducting an audit of the process
used by posts to request funding for physical security-related needs. OIG is requesting that you
complete a questionnaire on this subject.

RSOs at Critical/High Threat posts previously received an OIG questionnaire in January 2013,
related to improving security at critical and high threat posts. That OIG questionnaire included
a few questions related to funding needs. After it received the responses to the preliminary
questionnaire, OIG made a decision to significantly expand its work related to funding to include
an assessment of the process used by all posts to request funding for any physical security need.

The purpose of the current questionnaire is to obtain feedback from post officials as to whether
the process for posts to request funds for physical security needs at overseas buildings is
understandable and easy to use. Although OIG is sending this questionnaire to RSOs, we
encourage RSOs to obtain additional information from other post officials, such as the Facilities
Maintenance Officer, in order to provide complete information on the process used by posts to
request funding for physical security needs. If an RSO is responsible for more than one post,
OIG requests the responses address funding issues solely at the primary post for which the RSO
is responsible.

OIG is requesting that responses be limited to funding for physical security-related needs. For
purposes of this questionnaire, OIG defines “physical security” as measures designed to deny
access to unauthorized personnel (including attacks or intruders) from facilities and to safeguard
personnel working in those facilities. Physical security includes concrete, tangible measures to
deter access, such as locked doors, perimeter fences, or other barriers. Technical or Procedural
Security needs are not being covered by this audit. In addition, short-term leased, residential
property is not included in this audit.

This questionnaire is intended as an initial data-gathering tool. OIG will not issue
recommendations based solely on the responses to this questionnaire. This questionnaire should
take approximately 15 minutes to complete. However, some requested information may need to
be obtained from other sources within the Embassy. Please complete the questionnaire by
marking the desired choice or typing in a response when required. Space has been provided at
the end of the questionnaire for any additional comments you might want to make.

                                             45
                                        UNCLASSIFIED
                                      UNCLASSIFIED




Kearney Notes:

   1.		 Responses are first expressed in raw totals enclosed by parenthesis followed by


        percentages, unless specified otherwise. 

   2.		 The number of responses to each question is not identical because respondents did not
        answer all questions and some questions allowed multiple answers.
   3.		 Percentages may not add to 100 due to rounding.
   4.		 For Questions 8, 9, and 11-19, asterisks indicate that “Not applicable” responses were
        filtered from the data for clarity of the analysis and presentation. Only respondents
        actually providing assessments were included in calculating the percentages reported.




                                           46
                                      UNCLASSIFIED
                                         UNCLASSIFIED




1. What is your position at post? (Please select one.)

   1. 	[(104) 79%] Regional Security Officer
   2. 	[(3) 2%] Deputy Regional Security Officer
   3. 	[(21) 16%] Assistant Regional Security Officer
   4. 	[(0) 0%] Post Security Officer
   5. 	[(4) 3%] Other

2. 	Approximately how many years of experience do you have in Department of State security
    matters?        years

   Responses averaged 13 years of experience.

3. 	Did your post have any physical security-related needs in FY 2012?

   1. 	[(83) 63%] Yes
   2. 	[(49) 37%] No

4. What was the reason(s) for the physical security-related need(s) of your post in FY 2012?
   (Please select all that apply.)

   1. 	[(71)] Existing deficiencies
   2. 	[(38)] Normal deterioration of the facility
   3. 	[(22)] New physical security requirements established
   4. 	[(18)] Increase in physical security-related risks at post
   5. 	[(7)] Other

5. 	Did your post formally request funding for any of these physical security-related needs during
   FY 2012?

   1. 	[(59) 71%] Yes
   2. 	[(24) 29%] No

6. 	Please provide the reason(s) for not formally requesting funding for all needs. (Please select
    all that apply; only select “Not applicable” if your post formally requested funds for all of its
    FY 2012 physical security-related needs.)

   1. 	[(8)] Post chose to fund need using post funds
   2. 	[(8)] Post did not believe that the need would be funded
   3. 	[(4)] Post was advised by Department officials in Washington not to request funds
   4. 	[(3)] Funds for same need were requested previously and denied
   5. 	[(4)] Post received waiver/exception for physical security-related need
   6. 	[(2)] Post considered process to request funds confusing or difficult
   7. 	[(30)] Other
   8. 	[(37)] Not applicable.

                                              47
                                         UNCLASSIFIED
                                        UNCLASSIFIED




7. 	 Please complete the table below regarding the physical security-related needs of your post
     in FY 2012. (Please provide the “Number of Needs” for each type of security need; insert
     “NA” for “Not applicable” in the columns only if you post did not make any formal
     requests to the Department for funds.)

For purposes of this questionnaire, OIG is using the following definitions:

   •		 Minor Physical Security Upgrade – Post-managed projects with upgrades to perimeter
       protection, facility protection, and interior protection to bring deficient facilities into
       compliance with OSPB standards. Generally less than $250,000.
   •		 Major Physical Security Upgrade – OBO-managed projects with upgrades to perimeter
       protection, facility protection, and interior protection to bring deficient facilities into
       compliance with OSPB standards. Generally more than $250,000.
   •		 Repair and Improvement – Projects to restore deteriorated or damaged property to its
       original condition or increase a property’s value or change its use.
   •		 Other Security Issues – Any projects relating to physical security that are not
       encompassed by the previous categories, such as upgrades that are not related to OSPB
       standards but may be warranted given special circumstances at an overseas post.

                                                      Number of              Number of
       Type of Security-          Number of
                                                      Requests to         Requests Funded
        Related Need                Needs
                                                      Fund Needs         by the Department
    Minor Physical Security      [Range: 0–12]       [Range: 0–10]            [Range: 0–10]
    Upgrades
    Major Physical Security      [Range: 0–6]         [Range: 0–5]            [Range: 0–5]
    Upgrades
    Repair and Improvement       [Range: 0–20]       [Range: 0–10]            [Range: 0–10]
    Other Security Issues
    Please Specify in the box    [Range: 0–5]         [Range: 0–2]            [Range: 0–2]
    provided, which will
    expand.

8. 	 For approximately what percentage of formal requests that were not funded did the post
     receive an explanation from Department officials in Washington? (Please insert the
     percent in the box below; only select “Not applicable” if your post’s formal requests were
     always funded or your post did not make any formal requests.)

   [Responses averaged 44%]             percent
   [*]   Not applicable




                                             48
                                        UNCLASSIFIED
                                       UNCLASSIFIED





9. Generally, how adequate or inadequate were the responses from Department officials in
Washington as to why formal requests were not funded? (Please select one; only select “Not
applicable” if your post never received a response or your post did not make any formal
requests.)

   1. [(8) 24%] Very adequate
   2. [(5) 15%] Somewhat adequate
   3. [(7) 21%] Neither adequate nor inadequate
   4. [(5) 15%] Somewhat inadequate
   5. [(9) 26%] Very inadequate
   6. [*] Not applicable

10. 	For formal requests for physical security funding made by the post that were not funded, in
     what manner was post notified that the request was denied? (Please select all that apply;
     only select “Not applicable” if your post’s requests were always funded or your post did not
     make any formal requests.)

   1. [7] Cable
   2. [9] E-mail from OBO
   3. [4] E-mail from DS
   4. [4] Phone call from OBO
   5. [1] Phone call from DS
   6. [6] Post was not informed that a formal request was denied
   7. [12] Other
   8. [50] Not applicable

11. Irrespective of whether your post formally requested funding for any physical security-
    related needs, please provide the approximate total dollar amount of post funds spent in FY
    2012 to address physical security-related needs. (Please insert the amount in the box
    below; only select “Not applicable” if your post did not spend any of its funds for physical
    security-related needs.)

   [Responses ranged between $1,000-$2,500,000 and averaged $198,410] $                 of post
       funds
   [*]    Not applicable




                                            49
                                       UNCLASSIFIED
                                        UNCLASSIFIED





12. Irrespective of whether your post formally requested funding for any physical security-
    related needs, please provide the approximate total dollar amount spent in FY 2012 from
    funds received from other agencies to address physical security-related needs. (Please
    insert the amount in the box below; only select “Not applicable” if your post did not
    formally request and did not receive any funds from other agencies.)

   [Responses ranged between $15,000-$6,000,000 and averaged $1,086,421] $                  from
       other agencies
   [*]    Not applicable

13. How adequate or inadequate are the written policies and procedures requesting funds for
    physical security-related needs? (Please select one; only select “Not applicable” if you
    never formally requested funds for security-related needs in FY 2012 or any other time.)

   1.   [(19) 20%] Very adequate
   2.   [(38) 40%] Somewhat adequate
   3.   [(19) 20%] Neither adequate nor inadequate
   4.   [(14) 15%] Somewhat inadequate
   5.   [(6) 6%] Very inadequate
   6.   [*] Not applicable

14. To what extent, if at all, do you find the Security Equipment Responsibilities Matrix useful to
    request funding for security-related needs? (Please select one; only select “Not applicable”
    if you never used the matrix.)

   1.   [(21) 23%] Very great use
   2.   [(24) 26%] Great use
   3.   [(27) 29%] Moderate use
   4.   [(12) 13%] Some use
   5.   [(9) 10%] Little or no use
   6.   [*] Not applicable

15. 	How adequate or inadequate is the training for requesting funds for physical security-related
    needs? (Please select one; only select “Not applicable” if you never received training.)

   1.   [(3) 4%] Very adequate
   2.   [(20) 25%] Somewhat adequate
   3.   [(17) 21%] Neither adequate nor inadequate
   4.   [(17) 21%] Somewhat inadequate
   5.   [(24) 30%] Very inadequate
   6.   [*] Not applicable




                                             50
                                        UNCLASSIFIED
                                          UNCLASSIFIED



16. How adequate or inadequate is the assistance for requesting funds for physical security-
    related needs provided by the following sources of assistance. (Please select one box in
    each row; only select “NA” for “Not applicable” if you never availed yourself of any
    assistance from DS and/or OBO.)

                                                      Neither
     Source of         Very          Somewhat        Adequate       Somewhat        Very         Not
     Assistance      Adequate        Adequate           nor        Inadequate    Inadequate    Applicable
                                                    Inadequate
    DS               [(44) 40%]      [(49) 44%]     [(11) 10%]      [(6) 5%]      [(1) 1%]         *
    assistance
    OBO              [(18) 17%]      [(31) 30%]     [(23) 22%]     [(19) 18%]    [(14) 13%]        *
    assistance

17. How timely or untimely is the assistance provided by the following sources during the
process of requesting funds for physical security-related needs? (Please select one box in each
row; only select “NA” for “Not applicable” if you never availed yourself of any assistance from
DS and/or OBO.)

                                                      Neither
     Source of    Very Timely         Timely        Timely nor     Untimely        Very          Not
    Assistance                                       Untimely                    Untimely      Applicable
    DS               [(33) 30%]      [(48) 44%]     [(21) 19%]      [(8) 7%]     [(0) 0%]          *
    assistance
    OBO              [(14) 14%]      [(27) 26%]     [(31) 30%]     [(20) 19%]    [(11) 11%]        *
    assistance

18. How clear or unclear do you find the processes to request funding for security-related needs
    in the following categories? (Please select one box in each row; only select “NA” for “Not
    applicable” if you never requested funds for security-related needs in FY 2012 or any other
    time.)

                                                        Neither
                          Very         Somewhat                      Somewhat       Very         Not
      Type of Need                                    Clear Nor
                          Clear          Clear                        Unclear      Unclear     Applicable
                                                        Unclear
    Minor Physical      [(21) 21%]     [(44) 44%]     [(15) 15%]    [(17) 17%]     [(3) 3%]        *
    Security
    Upgrades
    Major Physical      [(17) 18%]     [(30) 32%]     [(15) 16%]    [(21) 22%]    [(11) 12%]       *
    Security
    Upgrades
    Repair and          [(18) 20%]     [(33) 36%]     [(15) 16%]    [(21) 23%]     [(4) 4%]        *
    Improvement
    Other Security      [(14) 16%]     [(29) 34%]     [(18) 21%]    [(22) 26%]     [(2) 2%]        *
    Issues


                                               51
                                          UNCLASSIFIED
                                        UNCLASSIFIED


19. How easy or difficult to use do you find the process to request funding for security-related
    needs in the following categories? (Please select one box in each row; only select “NA” for
    “Not applicable” if you never requested any funds for security-related needs in FY 2012 or
    any other time.)

                                                    Neither
                                     Somewhat                   Somewhat        Very         Not
      Type of Need     Very Easy                   Easy nor
                                       Easy                      Difficult     Difficult   Applicable
                                                    Difficult
    Minor Physical     [(13) 13%]    [(35) 35%]   [(28) 28%]    [(20) 20%]     [(4) 4%]         *
    Security
    Upgrades
    Major Physical      [(5) 6%]     [(24) 27%]   [(31) 35%]    [(18) 20%]    [(11) 12%]        *
    Security
    Upgrades
    Repair and         [(11) 13%]    [(27) 31%]   [(28) 32%]    [(18) 20%]     [(4) 5%]         *
    Improvement
    Other Security      [(7) 8%]     [(26) 31%]   [(29) 35%]    [(16) 19%]     [(5) 6%]         *
    Issues

20. Please provide any comments concerning the overall process for requesting funds for
    physical security-related needs as well as any other information that you think is important or
    pertinent. (If you choose to respond, please type in the box provided, which will expand to
    accommodate the size of your response.)

   69 responses were provided to this optional question.




                                             52
                                        UNCLASSIFIED
                                 UNCLASSIFIED




                                                                                    Appendix C
                   Bureau of Diplomatic Security Response



                                                    United States Depanment of State

                                                     Il~$hinglon,   D.C. 20520

                                                    www.$tllle.gov

UNCLASSIF IED                                       February 21, 2014

INFORMATION MEMO TOINSPEC TOR GENERAL LINICK - O IG

FROM ,       DS- Q"gory B.   Sta~~~S:;:~
                                    ~ '" \                 fEB Z1 2111\
SUBJECT: OS Comments and Responses to the DIG Audit of the Process to
Request and Prioritize Physical Security-Related Activities at Overseas Posts
(AUD-FM- 14-XX, Janu"')' 2014)

      Attached is the Bureau ofOiplomatic Security's response to the draft rcpon.

Attachment:
    As stated.




                                      53 

                                 UNCLASSIFIED
                                UNCLASSIFIED






                                     UNCLASSIFI ED


                  DS Comments to OIG Audit Draft Report
                Audit of the Process to Request :lnd Prioritize
             Physical Security-Related Activities at Overseas Po sts
                                (January 2014)


       DS appreciates the opport unity to comment on the Office of Inspector
General's (OIG), (Draft) Report of the Audit of the Process to Request and
Prioritize Physical Security Activities at Overseas Posts. DS believes the
independent audits and analysis undertaken by OIG are valuable tools in improving
the perfonnanee of our programs. DS also appreciates that OIG recognized the
Bureau's efforts to incorporate recommendations and strengthen our programs.

       On February 3, 20 14, DS requested OIG send a copy of this draft rcpOit to
each Regional Bureau Executive (EX) office for their comments. The Regional
Bureau EX offices had le<"lse issues that arc entwined with physical security
recOlllIllendations. The Post Management Officers (PMOs) need to have some
visibi hty on fac ility recommendations. However, DS was mfonned that OIG
would not allow the draft report to be sent to the regional EX offices. OIG would
only share the drafl reports with the action bureau at this time. DS be lieves it is
necessary for the regional EX ofllces to provide mput and would like it noted that
we requested action be taken.




                                     UNCLASSIFIED




                                     54 

                                UNCLASSIFIED


                                UNCLASSIFIED






                                     UNCLASSIFIED


OS provides the following edits to the attached OIG draft audit

International Programs Directorate/High Threa t Programs Directo rate. The
IHtefRQtieHal ¥!regHuHs DireeteFBle 's mission of these directorates is to provide
leadership, support , and oversight of overseas security and law enforcement
programs and related policy for the benefit of u.s. Goverrunent interests and the
international community. The Directorate' s Office of Regional Directors works to
provide a safe and secure environment for the conduct of u.s. foreign policy
through the oversight and support of Regional Security Offices worldwide . The
Offiee of Regional Directors oversees the work of over 700 regional security
officers (RSO) al over 250 posts worldwide. RSOs serve as personal security
advisors to the Chiefs of Mission on all security issues. RSOs are responsible for
Implementing and managing the Department's security and law enforcement
programs abroad, and identify security needs at posts and request ftmds for those
needs. RSOs are residents at a particular post, but may be responsib le for other
constituent posts within their respective region.

Recommem/(lt;olli: OIG recommends that the Bureau of Diplomatic Security, in
coordination with the Bureau of Overseas Buildings Operations, develop and
implement standard policies and procedures for requesting funds for physical
seeurity. related needs and document the policies and procedures in a manner that
is easily accessible by post security officials (for example, in a "physical security
funding handbook" ). Consideration should be given to how the SharePoint tool
currently in development can be u<;ed to simplify the request processes.

DS C omment: OS cUITcntly has a proccss for posts that require additional
funding, whether it is related to physical security, residential security, the local
guard program, etc. The process will be clearly articulated as part of an anntml
operating cable sent to RSOs, which is in draft. Posts, RSOs in particular, are
ll1slructed through operational cables and also through regul<lr commumc<ltions
from program offices via cable, emai l, or telephone to send a front channel cable
outlining the security requirement and include funding implications. The security
requirement is vetted by the appropriate DS program office and, if approved as a
security requirement, the DS office detennines whether the requirement should be
funded by DS or the Bureau of Overseas Buildings Operations (OBO). lffunding
is not available, the DS office coordinates with the Office of the Chief Financial
Officer (DSfEXlCFO) to identify funding. DSfEXlCFO also validates the requests
to ensure the correct State Opemtions appropriation is used . If OS believes that
OBO, not DS, should fund , then DS/EXlCFO works with the appropriate offices
within the Of11ee of the Legal Adviser and OBO' s Office of Financial


                                     UNCLASSIFIED




                                     55 

                                UNCLASSIFIED


                                UNCLASSIFIED






                                     UNCLASSIFIED


Management (OBOIRMIFM) to make a detennmation. DS will ensure this
procedure is clearly articulated to posts, including through the use of an mmual
operating cable.

Regarding SharePoint, OS uses this program fo r many tasks; however, for
requesting ftulding, a fonnal front eharmcl cable funding request with direct
response from the appropriate OS program office and OSlCFO funding validation
arc more appropriate.

ReCOllllllemltllioll 3: OIG recommends that the Bureau ofOiplomatic Security
develop and Implement a methodology to penodically communicate the processes
to request funds for physical security-related needs to all post security officials.

DS Commcnt: OS concurs with the OIG recommendation . OS will explore the
possibility ofmtegrating fund ing guidance and/or a funding request process within
our new Physical Security Survey site or Project Management Solution. OS will
also inelude language about requesting funds for physical security upgrades in its
annual operating cable.

Recommemltltioll 4: 0 1G recommends that the Bureau of Diplomatic Security
(OS), in coordination with the Bureau of Overseas Buildings Operations (OBO),
develop and implement a process to collect and maintain a comprehensive list of
all posts' physical security-related deficiencies. The list of physical security
deficiencies should inelude all needs, not just those that have heen approved or
instances of noncompliance with standards. ·Ine process should also require that
the list be ulxiatcd whcn ncw physical security deficiencies arc identified. If DS
and OBO elect 10 use the OS SharePomt Tool as the basis /()r mamlammg a list of
physical-security needs, OS should ensure that OBO' s requirements arc integrated
into the development of the tool and that OBO has sufficient access to the
mfOnllation.

OS Commcnt: DS concurs with the OIG recommendation . On Septem ber 16,
2013 , OS deployed the Physical Security Survey site, which provides RSOs with
re-designed survey templates, a sct of tools, and guidance to conduct accurate and
comprehensive physical security surveys. This survey sile, III addition 10 our
Project Management Solution, will provide a comprehensive list of physical
security deficiencies. However, it should be noted the physical security
requirements arc based upon standards set forth by the Overseas Scclll"ity Policy
Board (OSPS). In circwnstanees where extraordinary measures arc recommended,



                                     UNCLASSIFIED




                                     56 

                                UNCLASSIFIED


                                UNCLASSIFIED






                                     UNCLASSIFIED


these recommendations mllst be vetted at the appropriate Assistant Secretary or
Under Secretary level within the Department.

DS believes the recommendation is very inclusive and does not take into accOWlt
the difference between "needs" and "wants." This would add an un-vetted request
and labcl it as a security deficiency under a master list.

OS will meet with OBO to detennine OBO requirements to be considered for
intcgration into the new Physic.."11 Seewity Stuvey Site and business process. DS
cannot provide a timeframe for mtegration until OBO reqUIrements are defined.

Recommentltll;oll 5: OIG recommends that the Bureau of Diplomatic Security
develop an nnplementalion plan for the new SharePoint physical security survey
tool. This implementation plan should establish a reasonable deadline for all posts
to populate the tool with m/(mnalion on physical security defiCiencies and should
ensure that the tool has the fWlc tionality needed to generate sulllcient reports ll1
order to more easily detemline posts' physical security needs.

DS Commcnt: OS concurs with the OIG recommendation and has established an
implementation timeline. OS deployed the physical security stuVey site four
months ago. A message was sent on the RSO console to posts worldwide
explaining the new tool (refer to the details in the attached doewnent). In addition,
training was offered during the Bureau of Westem Hemisphere Affairs (WI-lA) and
High Threat Programs (l)S!HTP) RSO conferences held in Washington.

Thc DS goal is to sUlVey all COM facili ties (2,000 +) within three years. The
three-year time frame is aligned with the ex istmg survey update cyele.

Recommentltll;oll 7: OIG recommends that the Bureau of Diplomatic Security
develop and Implement a fonnal standardized process to vet IIlfomlal physical
security-related fWlding requests made by posts, which would include
documenting all mfonnal requests made by posts /()r physical security fundmg, not
just the requests that have been approved, and the disposition of those requests.

DS Commcnt: DS concurs with the mtent of this OIG recommendation but
recommends rewording the language. OS clearly states that if a post has a
requirement, post must send a cable. If an RSO sends an email and the program
office agrees with the need, the RSO should bc instructed to send a cable, per
guidance. OS believes the language should be changed to state that OS docs not



                                     UNCLASSIFIED




                                     57 

                                UNCLASSIFIED


                                 UNCLASSIFIED






                                      UNCLASSIFI ED


have "infonnal" requests and all fonnal requests, I.e., those sent V ia cable, are
reviewed as outlined in Recommendation I.

Recomme lll/alioll 9: OIG recommends that the Bureau of Diplomatic Security
(DS) and the Bureau of Overseas Buildings Operations (OBO) better defme the
roles and responsibilities of each bureau to ensure that both bureaus arc fully
involved in the process to prioritize and ftmd physic..'ll security necds at posts. As
part of developing these roles and responsibilities, a process should be established
to have a neutral party review and make decisions when disagreements arise about
funding decisions between OBO and OS .

DS Comme nt: DS concurs with the intent of this recommendation As described
In the response to Recommendation I, OS and OBO \vork collabomtively and In
close coordination with the Office of the Legal Adviser to ensure the proper State
Operations appropnation is u,>ed to fund physical secunty upgrades. Moreover,
DS and OBO strictly adhere to the "pick-and-stick" rule that appropriated fWlding
for a specific activity must adhere to that specified purpose, as well as to the
regulations as codified in the FAM and FN-l.




                                      UNCLASSIFIED




                                      58 

                                 UNCLASSIFIED


                              UNCLASSIFIED




                                                                                Appendix D
            Bureau of Overseas Buildings Operations Response




                                          United States Department of State

                                          Washington, D.C. 20520


UNCLASSIFIED
MEMORANDUM                                     FEB 1 9 2014




TO:           OIGI AUD - Mr. Norman Brown

FROM:         OBOIRM - Jiirg HochuliJ4"

SUBJECT: Draft Report on Audit of the Process to Request and Prioritize
         Physical Security Related Activities at Overseas Posts

The Bureau of Overseas Buildings Operations (OBO) appreciates the opportunity
to provide comments on the subject draft report.

Attached are OBO's comments on the draft report. Our comments have been
coordinated with the Bureau of Diplomatic Security.




Attachment:

      As stated




                               UNCLASSIFIED




                                   59 

                              UNCLASSIFIED
                                  UNCLASSIFIED





                                   UNCLASSIFIED


                 OBO Comments on the OIG Draft Report on
             Audit ofthe Process to Request and Prioritize Physical
                 Security Related Activities at Overseas Posts

The OIG requested OBO comments on the subject draft report. OBO appreciates
the opportunity to provide the following comments.

OBO's Comments: The draft report contains several misleading statements
concerning the auditor's inability to determine how much was expended for
physical security in FY 2012. The report indicates that the Department expended
approximately $938 million of Worldwide Security Upgrade funds, but could only
attribute $76.1 million directly to physical security-related activities. The
Department strongly disagrees with this mischaracterization of the facts. Funding
in the Worldwide Security Upgrade account is appropriated by Congress
specifically and solely for the purpose of making physical security upgrades to
existing facilities or for the acquisition or construction of new facilities to improve
the security of the most vulnerable overseas posts. The Department is prohibited
by law from using those funds for a purpose other than for security upgrades so by
definition, all expenditures ofthese funds are for physical security. Therefore, the
report should be corrected to recognize the fact that the Department expended
approximately $938 million of Worldwide Security Upgrade funds for physical
security-related activities, including the acquisition and construction of new
facilities.

The report makes several references to spending for security upgrades from
accounts such as R&I and Major Rehabilitation and includes statements such as
"Because R&I expenditures were recorded using R&! function code, the physical
security expenditures could not be accounted for separately" or" ... because
physical security components are included as part of the overall project, the
physical security expenditures cannot be identified separately by function
code ... " Such statements can be interpreted to imply that OBO did not properly
account for the physical security costs or that there is a deficiency in the
Department's account structure. In fact, those costs were accounted for
appropriately.

The Compound Security Program exists specifically to fund physical security
upgrade projects, but it is not the only account from which security work may be
funded. As the report mentions, repairs to building systems or structures are
funded from the R&! account and it is a legitimate use of R&I funds to apply them

                                   UNCLASSIFIED




                                       60 

                                  UNCLASSIFIED


                                UNCLASSIFIED





                                 UNCLASSIFIED


to a repair of a wall, door, or window. Similarly, the Major Rehabilitation
Program funds comprehensive renovation projects that may include physical
security enhancements. All expenditures for these projects are correctly charged to
the R&I or Major Rehab function codes, regardless of the specific scopes of work
or what building systems are being worked on. The security components are not
accounted for separately, and neither is the electrical, plumbing, or structural
work. For management and reporting purposes, the tracking of spending is done at
the project and function code level and the Department has no need or ability to
track costs for every type of work that may be included in a project.

OIG Statement on Page 12: The OIG states on page 12 that "In addition to the
expenditures for the three Worldwide Security Upgrade Programs, Kearney
identified expenditures of approximately $26.9 million for other items."

OBO's Comments: The $26.9 million figure includes $20.5 million of ICASS
charges, likely from ICASS services on NEC and rehab projects.

OIG Statement on Page 13: The OIG states on page 13 "Because R&I
expenditures were recorded using the R&I function code, the physical security
expenditures could be identified separately."

OBO's Comments: Code should be codes as there is more than one R&I
function code. Secondly, as noted above, the security components are not
accounted for separately. For management and reporting purposes, the
tracking of spending is done at the project and function code level and the
Department has no need or ability to track costs for every type of work that
may be included in a project.

OIG Statement on Page 14: OIG states on page 14 that .. . "OS has used
Worldwide Security Protection funds for physical security related projects when
the projects were not funded by OBO .. . For example, OS had provided Worldwide
Security Protection funds totaling $259,920 in FY 2012 for six physical security
projects relating to perimeter and internal security in Libya, Saudi Arabia, and
Yemen."

OBO's Comments: This implies that the costs should have been OBO costs.
While we do not have the specific details, DS provided funding in FY 2012 for
the Sanaa residential security upgrade, as well as upgrades at temporary
mission facilities, using the correct DS funding. Same comment on page 30,

                                 UNCLASSIFIED
                                                                                  2




                                     61 

                                UNCLASSIFIED


                               UNCLASSIFIED






                                  IJNCI,ASSIFIED


the funding was for the temporary mission facilities , again usin g the correct
(DS) fundin g.

OIG Statement on Page 21: OIG states on page 21 that, "Further, 40 respondents
(30 percent) stated that their posts used post funds ranging from $ 1,000 to $2.5
million for physical security needs in FY 2012 rather than submitting a fonnal
rcquc>;t for funding "

OBO's Comments: Thc report notcs that OBO and DS stated this would be in
violation of appropriation law. It is specul ation without knowing the posts in
question , but It more likely answer (since the sun'cy went only to security
officers and not financ e officcrs) is that the survey responses were in error.
Finance is not so mething RSOs specia lize in , nor should they. They often
refer to fundin g sent by OBO as "DS fundin g". Thc wonling of the question
could also have co ntributed to the responses (see OBO Co mm ents to
Questionnaire Question 11 below. see p:lge 5).

OIG Statement on Page 23: OIG states on page 23 that ... "Instead flU1ding
decisions were often made by one i.ndividual without documented standards and
guidance."

OBO's Comments: Funding decisions (determining the appropriate funding
sourcc for proposed sccurity upg rades) arc hased on the funding
responsibilitie~ outlined in 15 FAM 165. In addition, OBO would like to note
that thcre is an OBO-DS Physical Security Res ponsihility Matrix that was
approved by VIS Kennedy. This document describes which office/Bureau is
res ponsible for fundin g a nd unde rtakin g repa irs andlor maintenance of
phys ical security equipment at posts thereby guiding fund ing decisio ns.

OIG Statement on Page 23: OIG slates 0 11 p<lge 23 th<lt ''Neither OS nor aBO had
developed a comprehensive long-range physiC<l1 security plan that would help
focus attention on critical needs. "

OBO's Comments: OBO would like to note that OBO's Long-Range Plan
which is made avail:lble to all posts includes Com pound Security Program
project details and funding totals for each po st, where applicable.

OIG Statement on Page 27: The OIG states on page 27 "Kearney also identified an
Illstance where a post that was ranked III the top 15 percent of the most vulnerable

                                  UNCLASSIFIED
                                                                                    3




                                    62 

                               UNCLASSIFIED


                               UNCLASSIFIED






                                 IJNCI ,ASSIFIED


posts on the OS Risk Matn x ,>vas not scheduled for an upgrade until FY 2017,
while 25 of the 29 posts seheduled ... were rank ed lower. "

OBO' s Comments : The po st at issue is a low risk post which is considered in
our assessment of the vulnerabilities. The main facilities have very little
setback, and there has been a succession of projects to improve the security
situation as much as possible, given the location. Th ere was a PAC project in
2005, and there were barriers, booths, and knee wall projects around 2009.
As WIIS noted specifically on this post and projects in the inten' iews, we arc
currently working with post on safe area projec l~ in the main and leased office
space, but most of what can be done with the existing facility has already been
done. It is not being ignored, but there is little more that can be done.

OIG Slatement on Page 28: The OIG states on page 28 Ihal ... "Area Managemenl
Officers within OBO' s OlTIce of Area Management score the requests by assignmg
\veighted factors to 12 specific critena ..

OBO' s Comments: 080 uses 14 specific criteria, not 12.

O IG Statement on Page 30: The OIG states on page 30 ... "OS officials requested
that OBO fund barriers 10 block off the road leading to the chancery entrance.
However, OBO did not fund the request because the barriers would be placed
outside the perimeter of the compound and were therefore not required by OSPB
standards."

OBO' s Co mmenh : The po st in question is II fully OSPB-complillnt NEC, and
the initial plan was to construct a diplomatic enclave by installin g barriers on
public roads approaching our compound and enclosing numerous missions in
the area. Nonetheless, once the details of the project were worked out, it was
funded in NOl'ember 2012.

O IG Statement on Page 30: The OIG also states on page 30, "However, when
OBO does decline to fund physical security needs thaI O S considers essential, it
can be difticult for OS to address the deficiency. If OS considers the deficiency
significant, the Desk Officers attempt to identify available funding that can be
used . For instance, in FY 2012, the Office of Physical Security Programs fWlded
six physical security projects, totaling $259,820, that were related to perimeter
security."


                                 UNCLA SSIFIED
                                                                                    4




                                    63 

                               UNCLASSIFIED


                                 UNCLASSIFIED





                                  UNCLASSIFIED


and received. The independent clause - "please provide the approximate total
dollar amount of post funds spent in FY 2012 to address physical security­
related needs" likely included physical security funding provided to posts.

OBO Comments on the Recommendations:

Recommendation I: OIG recommends that OS in coordination with OBO. develop
standard policies and procedures for requesting funds for physical security related
needs and document the policies and procedures.

OBO's Comments: The recommendation should be changed slightly to " ...
policies and procedure for requesting physical secnrity upgrades and
document the policies and procedures ... " The distinction is needed since
funding is near the end ofthe process - first the need has to be identified,
scoped, possibly designed, etc. before a funding action is needed.

Recommendation 2: OIG recommends that the OBO develop and implement a
process to respond to posts' formal requests for physical security-related funding,
which should include commitments to respond within certain timeframes.

OBO's Comments: OBO concurs, noting that funding will be part of the
overall process developed in Recommendation 1.

Recommendation 4: OlG recommends that the Bureau of Diplomatic Security
(OS), in coordination with the Bureau of Overseas Buildings Operations (OBO),
develop and implement a process to collect and maintain a comprehensive list of
all posts' physical security-related deficiencies. The list of physical security
deficiencies should include all needs, not just those that have been approved or
instances of noncompliance with standards. The process should also require that
the list be updated when new physical security deficiencies are identified. If OS
and OBO elect to use the OS SharePoint Tool as the basis for maintaining a list of
physical-security needs, OS should ensure that OBO's requirements are integrated
into the development of the tool and that OBO has sufficient access to the
information.

OBO's Comments: The list of physical security deficiencies should consist of
valid deficiencies vetted by DS against the appropriate OSPB physical
security standards. This will provide a validated universe of requirements to
be addressed, with new valid requirements added as they are identified.

                                  UNCLASSIFIED
                                                                                      6




                                      65 

                                 UNCLASSIFIED


                                UNCLASSIFIED





                                  UNCLASSIFIED



OBO's Comments: The six projects were properly funded by OS with OS
funds. Sanaa was residential security upgrades to a STL property.

OIG Statement on Page 32: The OIG also states on page 32 that .. . "OBO
developed and issued a Long-Range Plan that provided detailed infonnation post
by post on new construction projects and needed repairs and improvements."

OBO's Comments: As noted previously, the Long-Range Plan which is made
available to all posts also includes Compound Security Program project
details and funding totals post by post, where applicable.

OBO Comments on Ouestionnaire:

It is difficult to address the conclusions from the questionnaire data without
knowing the specific posts and issues. For example, "formal requests" would
typically be via cable. Absent more specific information, we cannot determine
whether the "denial" was by OS or OBO, or the reason for the denial of
specific individual items.

Since the posts that responded to the questionnaire stated that they have
pending security upgrade needs, the specific posts should be identified to OBO
and OS for immediate follow-up to help identify and address existing
vulnerabilities.

OIG Ouestionnaire Ouestion 4: What was the reason for physical security related
needs for your post?

OBO's Comments: The second most common answer was "'normal
deterioration of the facility". It is unclear how this is physical security related
- absent more specific information.

OIG Ouestionnaire Ouestion 11: Irrespective of whether your post fonnally
requested funding for any physical security-related needs, please provide the
approximate total dollar amount of post funds spent in FY 2012 to address physical
security-related needs.

OBO's Comments: Given the large dollar amounts reported, it is likely that
the reported totals include security upgrade funding that post had requested

                                 UNCLASSIFIED
                                                                                  5




                                     64 

                                UNCLASSIFIED


                                 UNCLASSIFIED





                                  UNCLASSIFIED



Recommendation 6: OIG recommends that the Bureau of Overseas Buildings
Operations develop and implement a formal process to document all formal
requests made by posts for physical security funding, not just the requests that have
been funded or approved, and the disposition of those requests.

OBO's Comments: OBO concurs, noting that funding will be part of the
overall process developed in Recommendation 1.

Recommendation 8: OIG recommends that the Bureau of Overseas Buildings
Operations, in coordination with the Bureau of Diplomatic Security, develop and
implement formal standardized processes to prioritize physical security-related
deficiencies at posts by category, such as major physical security upgrades, forced­
entry/ballistic-resistant projects, and minor physical security upgrades. The
prioritizations should be performed based on a comprehensive list of all physical
security needs and should be periodically updated based on changes in risk factors
or posts' needs. The processes used to perform the prioritizations should be
documented and repeatable. In addition, in developing the processes,
consideration should be given to how the Overseas Security Policy Board
standards will be utilized, what risk factors will be considered, and what impact
upcoming major rehabilitation projects or new construction would have on the
prioritized rankings.

OBO's Comments: OBO concurs, with the same comment as
Recommendation 4 - the prioritization should be performed on a
comprehensive list of DS validated deficiencies.

Recommendation 9: OIG recommends that the Bureau of Diplomatic Security
(DS) and the Bureau of Overseas Buildings Operations (OBO) better define the
roles and responsibilities of each bureau to ensure that both bureaus are fully
involved in the process to prioritize and fund physical security needs at posts. As
part of developing these roles and responsibilities, a process should be established
to have a neutral party review and make decisions when disagreements arise about
funding decisions between OBO and DS.

OBO's Comments: OBO concurs with the exception of the neutral party. We
do not think there are, or have been, "funding decisions" that could not be
resolved within and between OBO and DS. If it really reached that level, M
would decide.

                                  UNCLASSIFIED
                                                                                       7




                                      66 

                                 UNCLASSIFIED


                               UNCLASSIFIED





                                UNCLASSIFIED



Recommendation 10: OIG recommends that the Bureau of Overseas Buildings
Operations, in coordination with the Bureau of Diplomatic Security, develop and
issue a Long-Range Physical Security Plan,

OBO's Comments: OBO does not concur. OBO's Long-Range Plan which is
made available to all posts includes Compound Security Program project
details and funding totals post by post, where applicable.




                                 UNCLASSIFIED
                                                                                  8




                                    67 

                               UNCLASSIFIED


